<html>
<title> - VOTING IN AMERICA: THE POTENTIAL FOR VOTER ID LAWS, PROOF-OF- CITIZENSHIP LAWS, AND LACK OF MULTI-LINGUAL SUPPORT TO INTERFERE WITH FREE AND FAIR ACCESS TO THE BALLOT</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]





VOTING IN AMERICA: THE POTENTIAL FOR VOTER ID LAWS, PROOF-OF-CITIZENSHIP 
LAWS, AND LACK OF MULTI-LINGUAL SUPPORT TO INTERFERE WITH FREE AND FAIR 
                          ACCESS TO THE BALLOT

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                              MAY 24, 2021

                               ----------                              

      Printed for the use of the Committee on House Administration
      
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         

     VOTING IN AMERICA: THE POTENTIAL FOR VOTER ID LAWS, PROOF-OF-
 CITIZENSHIP LAWS, AND LACK OF MULTI-LINGUAL SUPPORT TO INTERFERE WITH 
                   FREE AND FAIR ACCESS TO THE BALLOT



     VOTING IN AMERICA: THE POTENTIAL FOR VOTER ID LAWS, PROOF-OF-
 CITIZENSHIP LAWS, AND LACK OF MULTI-LINGUAL SUPPORT TO INTERFERE WITH 
                   FREE AND FAIR ACCESS TO THE BALLOT

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 24, 2021

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
                              ______

               U.S. GOVERNMENT PUBLISHING OFFICE 
45-612                  WASHINGTON : 2021         
                  
         
                   COMMITTEE ON HOUSE ADMINISTRATION

                  ZOE LOFGREN, California, Chairperson
JAMIE RASKIN, Maryland               RODNEY DAVIS, Illinois,
G. K. BUTTERFIELD, North Carolina      Ranking Member
PETE AGUILAR, California             BARRY LOUDERMILK, Georgia
MARY GAY SCANLON, Pennsylvania       BRYAN STEIL, Wisconsin
TERESA LEGER FERNANDEZ, New Mexico


                            C O N T E N T S

                              ----------                              

                              May 24, 2021

                                                                   Page
Voting in America: The Potential For Voter ID Laws, Proof-Of-
  Citizenship Laws, And Lack Of Multi-Lingual Support To 
  Interfere With Free And Fair Access To The Ballot..............     1

                           OPENING STATEMENTS

Chairman G. K. Butterfield                                            1
    Prepared statement of Chairman Butterfield...................     4
Hon. Bryan Steil, Ranking Member                                      6
    Prepared statement of Ranking Member Steil...................     8

                               WITNESSES

Dr. Lonna Rae Atkeson, Professor and Regents' Lecturer, 
  University of New Mexico.......................................    56
    Prepared statement of Dr. Atkeson............................    59
Matthew L. Campbell, Staff Attorney, Native American Rights Fund.    65
    Prepared statement of Mr. Campbell...........................    67
Dr. Nazita Lajevardi, Assistant Professor, Michigan State 
  University.....................................................    93
    Prepared statement of Dr. Lajevardi..........................    95
Andrea Senteno, Regional Counsel, Mexican American Legal Defense 
  and Educational Fund...........................................   103
    Prepared statement of Ms. Senteno............................   105
Lori Roman, President, American Constitutional Rights Union......   113
    Prepared statement of Ms. Roman..............................   115
Dr. Matt A. Barreto, Professor, University of California, Los 
  Angeles........................................................   163
    Prepared statement of Dr. Barreto............................   166
Terry Ao Minnis, Senior Director of Census and Voting Programs, 
  Asian Americans Advancing Justice AAAJC........................   177
    Prepared statement of Ms. Minnis.............................   179
Kira Romero-Craft, Managing Attorney, Southeast Office Latino 
  Justice PRDLEF.................................................   192
    Prepared statement of Ms. Romero Craft.......................   194
Harmeet Dhillon, Dhillon Law Group, Inc..........................   202
    Prepared statement of Ms. Dhillon............................   205

                        QUESTIONS FOR THE RECORD

Dr. Lonna Rae Atkeson, Professor and Regents' Lecturer, 
  University of New Mexico, responses............................   220
Matthew L. Campbell, Staff Attorney, Native American Rights Fund, 
  True North Group, responses....................................   223
Dr. Nazita Lajevardi, Assistant Professor, Michigan State 
  University, responses..........................................   231
Andrea Senteno, Regional Counsel, Mexican American Legal Defense 
  and Educational Fund, responses................................   242
Lori Roman, President, American Constitutional Rights Union, 
  responses......................................................   249
Dr. Matt A. Barreto, Professor, University of California, Los 
  Angeles responses..............................................   253
Terry Ao Minnis, Senior Director of Census and Voting Programs, 
  Asian Americans Advancing Justice AAJC, responses..............   262
Kira Romero-Craft, Managing Attorney, Southeast Office Latino 
  Justice PRDLEF responses.......................................   266
Harmeet Dhillon, Dhillon Law Group, Inc., responses..............   280

                       SUBMISSIONS FOR THE RECORD

Reexamining the ``Politics of In-Between'': Political 
  Participation Among Mexican Immigrants in the United States, 
  Matt A. Barreto and Jose A. Munoz, 2003........................   294
A New Barrier to Participation: Heterogenous Application of Voter 
  Identification Policies, Lonna Rae Atkeson et al., 2009........   315
Translating into Votes: The Electoral Impacts of Spanish-Language 
  Ballots, Daniel J. Hopkins, 2011...............................   323
English Proficiency and Latino Participation in U.S. Elections, 
  Michael Parkin and Frances Zlotnick, 2011......................   341
The Challenge of Obtaining Voter Identification, The Brennan 
  Center for Justice, 2012.......................................   364
Voter ID: Who Has Them? Who Shows Them, Charles Stewart III, 2013   401
Who Asks for Voter Identification? Explaining Poll-Worker 
  Discretion, Lonna Rae Atkeson et al., 2014.....................   434
Issues Related to State Voter Identification Laws, United States 
  Government Accountability Office, 2014.........................   449
The High Cost of `Free' Photo Voter Identification Cards, Richard 
  Sobel, 2014....................................................   658
Voting Rights for Whom? Examining the Effects of the Voting 
  Rights Act on Latino Political Incorporation, Melissa J. 
  Marschall and Amanda Rutherford, 2015..........................   720
Voter Identification Laws and the Suppression of Minority Votes, 
  Zoltan Hajnal et al., 2017.....................................   737
The Racial Implications of Voter Identifications Laws in America, 
  Matt A. Barreto et al., 2018...................................   755
Who Does Voter ID Keep from Voting?, Bernard L. Fraga and Michael 
  G. Miller, 2018................................................   767
A Disproportionate Burden: Strict Voter Identification Laws and 
  Minority Turnout, John Kuk et al., 2020........................   821
Obstacles at Every Turn: Barriers to Political Participation 
  Faced by Native American Voters, The Native American Rights 
  Fund, 2020.....................................................   831
The Facts About Election Integrity and the Need for States to Fix 
  Their Election Systems, The Heritage Foundation 2021...........  1007
The Other Voting Right: Protecting Every Citizen's Vote by 
  Safeguarding the Integrity of the Ballot Box, Yale Law & Policy 
  Review.........................................................  1014

 
     VOTING IN AMERICA: THE POTENTIAL FOR VOTER ID LAWS, PROOF-OF-
 CITIZENSHIP LAWS, AND LACK OF MULTI-LINGUAL SUPPORT TO INTERFERE WITH 
                   FREE AND FAIR ACCESS TO THE BALLOT

                              ----------                              


                          MONDAY, MAY 24, 2021

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:02 a.m., via 
Webex, Hon. G. K. Butterfield [Chair of the Subcommittee] 
presiding.
    Present: Representatives Butterfield, Aguilar, Leger 
Fernandez, and Steil.
    Also Present: Representatives Scanlon and Davis.
    Staff Present: Jamie Fleet, Staff Director; Daniel Taylor, 
General Counsel; Brandon Jacobs, Legislative Clerk; David 
Tucker, Senior Counsel and Parliamentarian; Sean Wright, Senior 
Elections Counsel; Andrew Kasper, Elections Counsel; Sarah 
Nasta, Elections Counsel; Peter Whippy, Communications 
Director; Natalie Young, Press Secretary; Tim Monahan, Minority 
Staff Director; Caleb Hays, Minority General Counsel & Deputy 
Staff Director; Nick Crocker, Minority Deputy Staff Director; 
Gineen Bresso, Minority Special Counsel; Rachel Collins, 
Minority Counsel; Ashley Phelps, Minority Communications 
Director; Mike Cunnington, Minority Policy Advisor; Will 
Neitzel, Rep. Steil Personal Staff.
    Chairman Butterfield. The Subcommittee on Elections of the 
Committee on House Administration will now come to order.
    I am delighted that we have several of our members with us 
today. I realize that we are mostly in our districts this week, 
but thank you to the members for logging on and being a part of 
this very, very important hearing.
    We have Mr. Aguilar, Mr. Steil, Ms. Leger Fernandez, Mr. 
Davis, Ms. Scanlon--if she is not on now, she is soon to 
arrive--and, of course, the Chairman. So thank each of you for 
joining us today. We do have a quorum.
    As we begin, I want to note we are holding this hearing in 
compliance with the regulations for remote committee 
proceedings pursuant to House Resolution 8. Generally, we ask 
Subcommittee members and witnesses to keep their microphones 
muted when not speaking to limit background noise. Members will 
need to unmute themselves when seeking recognition or when 
recognized for their five minutes.
    Witnesses--and thank you for joining us today. The 
witnesses will also need to unmute themselves when recognized 
for their five minutes or when answering a question.
    Members and witnesses, please, please, keep your cameras on 
at all times, even if you need to briefly step away. Please do 
not leave the meeting or turn your camera off. That would not 
be a good idea.
    I would also like to remind members that the regulations 
governing remote proceedings require that we cannot participate 
in more than one committee proceeding at the same time.
    At this time, I will ask unanimous consent that the chair 
be authorized to declare a recess of the Subcommittee at any 
point and that all members have five legislative days in which 
to revise and extend their remarks and have any written 
statements be made part of the record.
    I don't hear any objections. Thank you to my colleagues for 
that. Hearing no objections, it is so ordered.
    Ladies and gentlemen, today's hearing is the third in a 
series of hearings this Subcommittee is conducting this year 
examining voting and election administration in America. Today, 
we will examine three types of State and local election 
administration laws: those requiring voters to present 
identification to vote, those requiring voters to provide 
documentary proof of citizenship in order to register to vote, 
and those governing the provision of multilingual voting 
support.
    Since the Supreme Court back in 2013, in the case of Shelby 
County v. Holder, a number of States have adopted very strict 
voter ID laws requiring voters to present a qualifying voter ID 
in order to vote, some doing so immediately after the Court's 
decision. Voter ID laws have been shown to disproportionately 
burden minority voters. That is a demonstrated fact. I don't 
believe there are many experts who would dispute that.
    Voter ID laws have been shown to disproportionately burden 
minority voters. African-American and Latino and Native 
American voters, for example, are less likely to have 
qualifying forms of ID. They are particularly burdened by the 
cost of obtaining IDs. And studies have shown that strict voter 
ID laws disproportionately decrease minority turnout. We should 
all be concerned about that.
    Voter ID laws adopted in Texas, in my State of North 
Carolina, impose particularly troubling burdens on minority 
voters. Now, before the Shelby decision, both Texas and North 
Carolina had to obtain preclearance of their voter ID laws from 
the Department of Justice. Within days of that decision back in 
2013, these States imposed restrictive voter ID laws, laws that 
their legislatures knew, they knew would not have survived the 
Department of Justice's review.
    Federal courts found that the laws were enacted with the 
intent, not just the effect, but the intent to discriminate 
against minority voters. The courts relied on evidence that the 
legislatures knew the laws would disproportionately burden 
minority voters and provided pretextual justifications for 
enacting them.
    In my State of North Carolina, a Federal court found that 
our voter ID law in particular targeted African-American voters 
with almost surgical precision, and I put that in quotes, 
almost surgical precision. That was a Federal court.
    The Texas and North Carolina voter ID laws illustrate the 
critical role the Voting Rights Act played in protecting the 
rights of minority, voters and exemplified the need for 
Congress, for us, to enact new legislation to revitalize 
Federal protection of minority voting rights.
    Like voter ID laws, laws requiring voters to provide 
documentary proof of citizenship to register to vote have been 
shown to disproportionately burden minority voters. Studies, 
qualitative studies, have shown that obtaining the required 
documentation can sometimes cost in excess of $1,000, leading 
some to characterize these laws as imposing a modern-day poll 
tax.
    These documentary proof-of-citizenship laws have been shown 
to disenfranchise tens of thousands of voters and are justified 
by little more than unsupported claims of voter fraud. Lack of 
access to multilingual voting support also poses a significant 
burden on minority voters.
    Studies, credible studies, have shown that language 
minority voters are more likely to be registered and turn out 
at a higher rate than they have access to voting information in 
their native language. I hope we will get into that today. 
Despite this evidence, States and localities continue to 
deprive voters of multilingual voting support.
    The testimony provided today will help us, will help this 
Committee as it seeks to understand what needs to be done to 
ensure that voter ID laws, proof-of-citizenship laws, and laws 
and processes governing the provision of multilingual voting 
materials are nondiscriminatory. We must do that. We should be 
making it easier for all citizens to vote, not leaving State 
and local governments with unchecked authority to enact 
legislation that imposes discriminatory barriers to the ballot.
    And so I know this was a little long, but I look forward to 
hearing from today's witnesses and working with my colleagues 
on both sides of the aisle on these important issues.
    Thank you for listening.
    I will now recognize the Ranking Member, Mr. Steil. And 
thank you to the Ranking Member for visiting me in my office 
the other day. We had a very delightful and productive 
conversation, and this will continue to happen throughout our 
work. So thank you, Mr. Steil, for visiting with me.
    And now I will recognize you for an opening statement.
    [The statement of Chairman Butterfield follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Steil. Thank you very much, Mr. Chairman. It is good to 
see you today. It was a great conversation in your office last 
week.
    I appreciate you holding today's hearing on this important 
topic. I think it is absolutely critical we find ways to work 
to ensure our elections are free, fair, and secure, and photo 
ID is a simple, commonsense way that we can ensure that every 
legal vote is counted and only legal votes are counted.
    Thirty-six States currently require some form of voter ID 
to vote. In 2020, we saw more people cast their vote than in 
any Presidential election in history. In fact, voter turnout 
increased in every State, including some of the sharpest 
increases occurring in States with a required voter ID. And 
further dispelling the myth that voter ID laws deter voting, 
voter turnout increased among all race groups in 2020.
    And contrary to some of the written testimony put forward, 
in the real world, I think it is clear that voter ID does not 
deter people from legally voting. The data just doesn't support 
it. Common sense doesn't support it, and I think the American 
people know that.
    Among the States that ask for ID to vote, as my home State 
of Wisconsin, as well as the home State of the President of the 
United States, Delaware, other States include Connecticut, 
Rhode Island, New Hampshire, and the list goes on. And for the 
purpose of this hearing, I will reiterate what I have said at 
previous hearings: Republicans want to ensure that every 
eligible person who wants to vote is able to cast a vote, that 
we make sure that every lawful ballot is counted according to 
State law. We want to make sure that it is easy to vote and 
hard to cheat.
    The far left has been working overtime to mischaracterize 
new voting laws across the United States. The left's 
characterization of voter laws, like those recently passed in 
Georgia and other States, earned multiple Pinocchios and pants 
on fires when they were rated by fact checkers. Unfortunately, 
Democrats' election legislation, H.R. 1 or S. 1 in the Senate, 
it guts voter ID laws. And they continue to push this false 
narrative that election safeguards, like voter ID, are somehow 
racist or an attempt by Republicans to suppress the votes of 
Americans from minority communities.
    Americans are used to showing their ID to do common things, 
like open a bank account, buy alcohol, flying a plane. I don't 
believe my local bank or the QuikTrip convenience store or the 
TSA is racist or has discriminatory intent when they ask for my 
ID. I think it is common practice. But even if a voter doesn't 
have an ID on election day, States have a process to allow the 
voter to cast their vote by filling out a provisional ballot. 
This ensures their vote, if proven lawful, is counted and that 
the voter is not denied their constitutional right to vote.
    For example, Texas, whose voting practices are often, I 
think, unfairly characterized, accept a voter's utility bill, 
bank statement, government check, birth certificate, or a 
paycheck. Delaware also has a process for this. These options 
make sure that access to the polls for all Americans to legally 
participate in the process.
    Equally as important as ensuring voters have access to the 
polls is ensuring people have confidence in our election 
results, and voter ID laws can help with this. Most Americans 
would agree that it is important that only U.S. citizens are 
voting in our elections.
    We recently saw in Illinois issues where hundreds of 
noncitizens were accidentally registered to vote through the 
State's automatic voter registration program. This is a problem 
for the obvious reason that we don't want illegal votes cast in 
our elections. But it is also a problem because if an 
ineligible individual voted because flawed automatic voter 
registration made them think that they could, they would face 
serious consequences if caught, all because of the State's 
error. And, unfortunately, the Democrats' legislation, H.R. 1 
or S. 1, it mandates automatic voter registration, but it 
doesn't mandate any of the safeguards be built in to ensure 
mistakes like that don't happen.
    These kind of issues also undermine public confidence in 
our elections which we should be working to promote. We should 
be supportive of safeguards like voter ID that do not make it 
more difficult for people to vote, but it does make it more 
difficult for people to cheat.
    The success of our elections is reliant on the trust voters 
place in the system. So if we are exploring ways to ensure more 
people vote, I think it would be good to have a discussion 
about how the level of confidence people have in the accuracy 
of our voting system can impact people's choice to vote or not.
    With that, Mr. Chairman, I thank you, and I look forward to 
today's hearing. I yield back.
    [The statement of Mr. Steil follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. Thank you, Mr. Steil. Thank you very 
much for your opening statement.
    I am going to--I have two methods for unmuting myself, and 
so I thought I would go back to the original one. One way is to 
touch the space bar, but if you have got Microsoft Word in 
front of you, the space bar only spaces the line and does 
nothing with the muting. But, anyway, thank you, Mr. Steil, for 
your opening statement.
    Before proceeding, let me recognize the Ranking Member of 
the full Committee, my friend, Mr. Rodney Davis, for any 
opening words that he might have.
    Mr. Davis. Well, thank you, Mr. Chair, and I do want to 
commend you for the way that you are running this Subcommittee. 
I appreciate the opportunity to have a wide variety of 
witnesses come in, and I am very anxious to hear their 
testimony.
    I am a little miffed at you, though, Mr. Chair and Mr. 
Ranking Member. I had no idea you guys were meeting together 
right next door to my office. If I would have known, you know, 
I would have at least come and pounded on the window, do 
something to disrupt the meeting; but would always love to see 
both of you because I think it is a testimony to the 
bipartisanship that exists in this Congress that a lot of 
people don't see and the media doesn't talk about. So cheers to 
both of you for getting together to talk about issues. And 
thanks again, Mr. Chair, for letting us talk about the issues 
today.
    I want to echo one of the comments that Ranking Member 
Steil mentioned. We believe H.R. 1 will be a disaster not just 
for State and local governments to be able to administer their 
constitutional authority and run elections from the States and 
localities where they should be run. H.R. 1 is going to put in 
place different policies and procedures that we have seen have 
gotten many people into trouble. They think that they might be 
registered to vote, but, unfortunately, they are not. And when 
they go cast that vote, they are held to the same 
accountability that anyone else would if they knew.
    So we are talking here about voter ID. Mr. Steil, Ranking 
Member Steil, made great points in stating we have had record 
turnout in the last Presidential election, but let's also not 
forget we had record turnout in the election that was the 
midterm election of 2018.
    During those two election cycles, we in Washington failed 
to celebrate what we did right to make sure that we had that 
record turnout. We have failed to talk about what the American 
people prefer, and 75 percent of likely voters surveyed in a 
recent Rasmussen poll actually believe voter ID is necessary 
for a fair and secure election. Two recent polls show broad 
support among African Americans and other minorities for voter 
ID. Rasmussen found 69 percent of African Americans support 
voter ID, while another poll by The Atlanta Journal-
Constitution finds two-thirds of voters in Georgia support 
voter ID. Eighty-two percent of Arizona's voters support 
election integrity reforms, which include stronger voter ID and 
voter roll cleanup.
    One of the recent hearings we had at the full Committee in 
the last Congress was to talk about voter roll cleanup, where 
we had then Secretary of State, now Senator of California, Alex 
Padilla, not commit to us to take off already identified dead 
people from the California voter rolls.
    At some point we have got to take a serious look at 
ensuring that the voter rolls that are used at every single 
polling place in this country are updated according to law. 
These are the types of things that this Subcommittee has been 
debating.
    I am glad to be here today, Mr. Chair and Mr. Ranking 
Member. And, again, I am really interested to hear the 
testimony.
    And I would ask unanimous consent, Mr. Chairman, to include 
some of the studies and polls that I just mentioned for the 
record.
    Chairman Butterfield. Without objection, so ordered.
    [The information follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Davis. Thank you.
    Thank you, Mr. Chair. I yield back.
    Chairman Butterfield. And thank you to the Ranking Member.
    Now, in just a moment, I will introduce today's 
distinguished panel, but before I do so, as a reminder to our 
witnesses, each of you will be recognized for five minutes. 
There is a timer on your screen, and I am sure that you have 
seen it by now. There is a timer on your screen. Please be sure 
you can see the timer and are mindful of the five-minute time 
limit.
    Your entire written statements will be made a part of the 
record, and the record will remain open for at least five days 
for additional materials to be submitted.
    And so I welcome, I welcome each one of our witnesses. 
Joining us today are five very distinguished individuals. First 
is Dr. Lonna Atkeson of the University of New Mexico. The next 
is Matthew Campbell of the Native American Rights Fund. The 
next is Dr. Nazita--and I know I am going to botch this, so 
please excuse me--Dr. Nazita Lajevardi, and she can correct it 
when it is her turn to speak, but thank you, from the Michigan 
State University. The next is Andrea or Andrea Senteno of the 
Mexican American Legal Defense and Educational Fund. And our 
final witness is Lori Roman of the American Constitutional 
Rights Union.
    Dr. Lonna Rae Atkeson is a professor of political science, 
regents lecturer, and Director of the Center for the Study of 
Voting, Elections, and Democracy, and the Institute of Social 
Research at the University of New Mexico. Dr. Atkeson is an 
internationally recognized expert in the area of election 
sciences, survey methodology, voting rights, election 
administration, public opinion, and political behavior. She has 
written over 50 articles and book chapters and dozens of 
technical reports, monographs, amicus curiae briefs, and other 
works on these topics.
    Now let's talk about Matthew Campbell. Matthew L. Campbell 
is a Staff Attorney with the Native American Rights Fund. Mr. 
Campbell, an enrolled member of the Native Village of Gambell 
on the Saint Lawrence Island in Alaska, has litigated numerous 
constitutional and statutory claims on behalf of Native 
Americans in areas ranging from water rights to religious 
freedom and freedom of speech. In the area of voting rights, 
Mr. Campbell recently brought a successful challenge to a North 
Dakota voter ID law on behalf of the Spirit Lake Nation and 
Standing Rock Sioux Tribe.
    Next is Dr. Nazita Lajevardi. The doctor is a Professor of 
political science at Michigan State University. She holds a 
Ph.D. degree in political science from the University of 
California, San Diego; a law degree from the University of San 
Francisco School of Law. Her research focuses on issues related 
to race and ethnic politics, political behavior, voting rights, 
and immigration. Her work has been published in numerous 
leading peer review journals and featured in a variety of media 
outlets, including The Atlantic, The New York Times, The 
Washington Post.
    Andrea or Andrea Senteno is regional counsel in the Mexican 
American Legal Defense and Educational Fund's D.C. office. 
Andrea leads MALDEF's efforts to protect Latino voting rights, 
including working to restore the vitality of Section 5 of the 
Voting Rights Act. She, Andrea Senteno, who previously served 
as a legislative staff attorney at the EAC, the Election 
Assistance Commission, holds a law degree from the American 
University of Washington College of Law.
    Lori Roman, President of the American Constitutional Rights 
Union. Her diverse career exemplifies her expertise and 
management in public policy, strategic planning, and public 
relations. Formerly, she served as the deputy director chief of 
staff of the White House Center for Faith-Based and Community 
Initiatives at the Department of Education, where she was 
responsible for strategic planning and management of resources 
to achieve the goals outlined in the President's Management 
Agenda. She also served as the Director of School Choice, 
senior advisor on family educational rights at the Department 
of Education. She holds a bachelor of business administration 
degree, a master of science degree in administration.
    So each one of the witnesses will now be recognized for 
five minutes, starting with Dr. Atkeson. You are now recognized 
for five minutes.

 STATEMENTS OF DR. LONNA RAE ATKESON, PROFESSOR, UNIVERSITY OF 
 NEW MEXICO; MR. MATTHEW LEE CAMPBELL, STAFF ATTORNEY, NATIVE 
AMERICAN RIGHTS FUND; DR. NAZITA LAJEVARDI, PROFESSOR, MICHIGAN 
STATE UNIVERSITY; MS. ANDREA SENTENO, REGIONAL COUNSEL, MEXICAN 
  AMERICAN LEGAL DEFENSE FUND; AND MS. LORI ROMAN, PRESIDENT, 
              AMERICAN CONSTITUTIONAL RIGHTS UNION

               STATEMENT OF DR. LONNA RAE ATKESON

    Ms. Atkeson. Thank you.
    Chairman Butterfield, Ranking Member Steil, and members of 
the Committee, especially my own Congresswoman, Teresa Leger 
Fernandez, thank you for the opportunity to testify before you 
today. I am Professor Lonna Atkeson from the University of New 
Mexico, and I study elections, voting behavior, and voting 
rights, and have written extensively on voter ID implementation 
and voter confidence.
    While most of the focus on issues related to voter ID 
policies has been on how they affect turnout, an equally 
important and alternative question to consider is whether voter 
ID policies are administered equally across groups. This is an 
important question because, historically, laws like voter ID 
have been used to create barriers to participation and have 
been implemented unequally across segments of the voting 
population.
    In the case of voter ID, the effects of minorities might be 
more subtle and difficult to discern because these laws may not 
directly result in reduction in turnout, but may affect voter 
confidence and satisfaction in the election process, which may 
have long-term consequences on voter turnout or lead to 
increases in provisional voting.
    Several studies of poll workers and voters suggest the 
implementation practices can result in unequal implementation 
and application of voter identification laws.
    In my original study in New Mexico, we found that many 
voters were asked by poll workers for ID inappropriately and 
that Hispanics and men were asked for photo ID more often than 
Whites and women. In another study in Massachusetts, 
researchers found that Blacks and Hispanics were asked for 
photo identification at higher rates than Whites. In subsequent 
studies in New Mexico, we have found various degrees of 
differences between Whites and Hispanics, sometimes showing 
significant differences and sometimes not, but always showing 
the inappropriate requests by poll workers for photo ID.
    Unequal application appears to be related to the 
interaction between the poll worker, the amount of discretion 
the poll workers have, along with the complexity of the voter 
ID law, especially having different voter ID rolls for 
different types of voters and having variety of rules that 
allow many different options for the type of ID that the voter 
can use and poll workers can request.
    For example, both New Mexico and Massachusetts had adopted 
minimum Help America Vote Act requirements that first-time 
voters who registered by mail and did not include photocopies 
of valid IDs with their mailed registration forms were required 
to show a physical ID. In addition, Massachusetts required a 
physical ID for voters who were identified as inactive. 
Otherwise, for most voters, the minimum standard for voter ID 
in Massachusetts was the name and address of the voter, and in 
New Mexico, it was the name, address, and birth year, but it 
was the voter's choice, and they could also use a photo ID, 
such as a driver's license, a Sam's Club card, their voter reg 
card, or a utility bill to identify themselves.
    This means that many States have the most accessible voter 
ID laws are the most likely to have problems with voter ID 
implementation. States that have easier to follow and 
consistent rules across voter ID have fewer problems with the 
application of policies, but, of course, those States may have 
different impact on turnout.
    Why does this happen? It seems the poll workers do not 
always follow or appear to know the law. Poll worker studies 
indicate that poll workers are likely to misinterpret, 
misunderstand, or disagree with the voter ID laws and, 
therefore, to misapply voter ID policies.
    Poll workers are temporary workers working long hours a few 
times a year. They are often poorly trained, likely with no 
background in public policy or law. Consequently, when they are 
faced with the decision on how to apply policies to which they 
may be uncertain, they choose to require voter ID or not based 
upon their personal beliefs or normative judgments about what 
they believe those laws should be.
    Can this problem be resolved? While proper training can 
reduce poll worker discretion substantially, it likely cannot 
eliminate it. In addition, it is clear that the county clerk 
has to be continuously vigilant because without constant 
emphasis during poll worker training, discretion results in 
uneven implementation.
    In conclusion, it is important to note that many States 
have hybrid policies that have different ID requirements for 
different types of voters and offer many options for voter IDs. 
These laws are more likely to produce voter and poll worker 
confusion, allowing poll workers to set their own standards.
    As legislators and policymakers grapple with this issue, 
they should consider how the design of laws affects their 
implementation and what the means for creating uniform policies 
for voter ID would be. Voters should be treated equally by 
their election administrators.
    [The statement of Ms. Atkeson follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. Thank you very much for that.
    We will now recognize Mr. Campbell for five minutes.

               STATEMENT OF MATTHEW LEE CAMPBELL

    Mr. Campbell. Thank you, Mr. Chairman, Ranking Member Steil 
and Davis, and all the members of the Committee.
    My name is Matthew Campbell, and I am a staff attorney at 
the Native American Rights Fund, also known as NARF. I am an 
enrolled member of the Native Village of Gambell in Alaska and 
work at NARF's Boulder, Colorado, office.
    NARF is the oldest and largest nonprofit law firm dedicated 
to protecting the rights of Native people across the country. I 
am honored to address the Committee today about the impacts of 
voter ID laws on Native Americans.
    Native Americans have historically faced discrimination 
when attempting to vote. For example, the Arizona Supreme Court 
held in 1928 that Native Americans could not register to vote 
because they were wards of the Federal Government. That 
decision stood for 20 years. Utah and North Dakota were the 
last States to officially afford Native Americans the right to 
vote in the late 1950s. We have seen, however, the 
discrimination against Native voters still exists today in the 
form of voter ID.
    Native Americans face many obstacles to voting. They live 
in isolated communities, disproportionately far away from State 
governmental offices. They have high levels of poverty within 
their communities. They disproportionately lack access to 
transportation, and all over the West, they often lack 
residential addresses on their homes. These and other 
conditions make it extremely difficult to obtain basic 
governmental services like healthcare or government-issued IDs.
    For many Americans, obtaining identification is a simple 
act of going to the local DMV. But given the isolating 
conditions Native Americans live in, the high levels of 
poverty, lack of access to transportation, the distance to the 
DMV, the process is far from simple and, in fact, severely 
burdensome.
    When faced with the option of paying for gas to travel 2 
hours to a State DMV or buying food or diapers, Native people 
have little hesitation in choosing survival over a State ID. 
State IDs are often unnecessary for Native people in their 
everyday lives. They are able to get by just fine with their 
Tribal IDs. However, many Tribal IDs do not have residential 
addresses on them because they often do not exist on the 
reservation.
    North Dakota is a perfect example. In 2011, the North 
Dakota legislature overwhelming shot down the greater 
restrictive voter ID law because it would be burdensome to 
voters. The legislature heard testimony that Native voters in 
particular would be harmed by the laws given their lack of 
addresses.
    When the Native vote was instrumental in the 2012 
elections, however, the legislature passed the most restrictive 
voter ID law in the Nation in 2013. The law was limited to four 
forms of ID, a State driver's license or ID, a Tribal ID, or a 
long-term nursing care certificate. The law required voter IDs 
to have a residential address on them. The problem was that 
many Tribal members only had Tribal IDs with no addresses or 
only a P.O. Box because many homes on the reservation lacked 
physical addresses. The law required something that was often 
impossible to obtain.
    Elvis Norquay, who testified before this Committee in 
February of 2020, was one of the individuals that was 
disenfranchised by the law. He, like many Native people, had 
been in and out of homelessness, lacked access to 
transportation, and only had a Tribal ID that did not have a 
residential address. But he had been voting in North Dakota for 
more than 20 years and knew all of the election workers at his 
polling location. Because of the new and unnecessary law, 
however, he was denied the right to vote.
    Native people all over the country are in a similar 
position to Elvis. There are high levels of poverty. There is a 
lack of access to transportation. There are oftentimes no 
residential addresses on homes on the reservation, and 
governmental offices are prohibitively far away. These ultra 
strict voter ID laws are unnecessary and disproportionately 
burden Native American voters.
    Sadly, Elvis passed away earlier this year, but we will 
continue to carry his message to Congress, a message that 
action is needed to protect the right to vote of all Americans 
and especially the most vulnerable.
    Thank you, Mr. Chairman.
    [The statement of Mr. Campbell follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. Thank you for your testimony. And I 
recall being part of the panel that went to North Dakota and 
heard the testimony of our dear friend, Norquay I believe his 
name was. So thank you for making reference to that, and he 
will be missed without question.
    At this time, I am going to recognize our next witness. 
This is the name that I fumbled in the beginning, and I am 
certain I will fumble it again. But, Dr. Lajevardi, you are 
recognized for five minutes. I am sure you have gone through 
this throughout your lifetime, so please forgive me. Thank you. 
You are recognized.
    Ms. Lajevardi. It is not the first time.
    Chairman Butterfield. Yes.

               STATEMENT OF DR. NAZITA LAJEVARDI

    Ms. Lajevardi. Chairperson Butterfield, Ranking Member 
Steil, and distinguished members of the Committee, it is an 
honor to offer testimony before the Subcommittee today. My name 
is Dr. Nazita Lajevardi, and I am an assistant professor of 
political science at Michigan State University. I was asked 
here to provide my expert opinion on the effects of voter 
identification laws. My scholarly work over the past 4 years 
has in part evaluated the impact of voter identification laws 
on minority voter turnout in American elections.
    Across the board, my colleagues and I have found that these 
laws impose a disproportionate burden on minority voters. Our 
research consistently has found a negative and significant 
empirical link between voter ID laws and minority turnout in 
the United States.
    Voting is the most fundamental tenet of American democracy. 
Through the vote, citizens elect their representatives, they 
influence policy, and they participate in democracy. And, 
importantly, any barriers to the vote should be carefully 
assessed to ensure that they do not significantly and 
systematically reduce the voices of marginalized groups such as 
racial and ethnic minorities.
    Today, voter ID laws represent one of the Nation's most 
important barriers to voting and, thus, one of our country's 
most important civil rights issues. By raising the cost of 
voting for some individuals more than others, they affect who 
votes and who does not, and in doing so, they substantially 
shape whose voices are represented in our democracy.
    As of 2020, the National Conference of State Legislatures 
estimates that 35 States have laws in force that request or 
require voters to show some form of identification at the 
polls. What is more, these laws are becoming stricter and more 
common.
    I have coauthored three studies that directly examine the 
effects of voter ID laws on minority voter turnout. In each 
study, my colleagues and I found a persistent, negative, and 
significant effect of these laws on minority voter turnout.
    Our first paper, which was published in The Journal of 
Politics in 2017, evaluated whether strict photo identification 
laws reduced turnout among registered survey respondents in a 
large national survey from 2006 and 2014. Our results from the 
study indicate that these laws serve not only to diminish 
minority participation but also to increase the gap in the 
voter participation rate between White Americans and non-White 
Americans in our study.
    We have another paper that was published in Politics, 
Groups, and Identities in 2020, and in this paper, we changed 
course and used yet another methodological technique to 
evaluate whether voter ID laws affect minority turnout across 
U.S. counties. In that paper, we focused on turnout changes 
across the 2012 and 2016 Presidential elections when Alabama, 
Mississippi, Virginia, and Wisconsin all implemented strict 
voter ID laws.
    Specifically, we looked to see if turnout in racially 
diverse counties declined more relative to turnout in 
predominantly White counties in those States that had enacted 
strict ID laws compared to those States that had not enacted 
strict ID laws over the same time period, and we found that 
turnout declined significantly more in racially diverse 
counties relative to less diverse counties in those States that 
had enacted strict ID laws over that time period compared to 
the other States.
    I would like to note that my scholarship on this matter is 
supplemented by a host of other scholars who have similarly 
found evidence of a negative effect of voter ID laws on 
minority turnout. And in addition to the evidence presented on 
the specific question of whether voter ID laws suppress the 
minority vote, it is important to highlight two additional 
points.
    First, minorities are less likely to possess valid forms of 
ID necessary to comply with these statutes. As such, the 
material burdens of voter ID laws fall harder on minority 
populations compared to their White American counterparts.
    Second, there is also some scholarly evidence demonstrating 
that minority citizens are often more likely than White 
Americans to be asked for identification at the polls.
    In closing my testimony, my professional opinion is that 
voter ID laws disproportionately reduce minority voter turnout 
and increase the gap between the voices of minorities and that 
of White Americans and American democracy.
    I suggest members of this Committee address the 
undemocratic and disproportionate effect of these laws on 
racial and ethnic minorities in the drafting and passage of 
future voting rights legislation.
    Thank you very much, and I look forward to your questions.
    [The statement of Ms. Lajevardi follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. Still having trouble with the mute 
button.
    Okay. Ranking Member, I am still having problem with the 
mute button.
    All right. Thank you very much for your testimony.
    Next will be Ms. Senteno. You are recognized for five 
minutes.

                  STATEMENT OF ANDREA SENTENO

    Ms. Senteno. Good morning, Chair Butterfield, Ranking 
Member Steil, and members of the Subcommittee. Thank you for 
the opportunity to testify today. My name is Andrea Senteno, 
and I am the Regional Counsel of MALDEF's Washington, D.C. 
office.
    For over 50 years, MALDEF has worked to promote the civil 
rights around Latinos living in the United States. Since its 
founding, one of MALDEF's top priorities has been securing 
equal voting rights for Latinos and promoting increased civic 
engagement and participation within the Latino community.
    Over the years, MALDEF has litigated numerous cases under 
Section 2, Section 5, and Section 203 of the VRA, challenging 
at-large systems, discriminatory redistricting, ballot access 
barriers, undue voter registration restriction, and failure to 
provide bilingual ballot materials or language assistance.
    For almost two decades, Latinos have constituted the 
largest racial or ethnic minority group in the U.S. As the 
growth of the Latino population expands, States and localities 
have worked to slow the registration and participation of new 
voters, and, thus, MALDEF's work in voting rights continues to 
increase.
    As Federal protections for voting evolve, policymakers 
seeking to limit the right to vote turn to alternative 
restrictions that restrict access to the ballot and which often 
disproportionately affect voters of color and language minority 
voters.
    In the last two decades, there has been an accelerating 
pattern of ballot-access restrictions enacted to address 
baseless myths of widespread voter fraud. Increasingly 
restrictive voter identification requirements, proof-of-
citizenship requirements for new registrants, and restrictions 
on how and when voter registration drives may occur are all 
State electoral changes seemingly implemented to stem the 
growing Latino vote in Texas, Arizona, and other States.
    In 2004, Arizona passed Prop 200, the Nation's first 
statewide proof-of-citizenship mandate for registering voters. 
From 2000 to 2010, Arizona's Latino population increased by 
almost 600,000, which is 30 percent of the State's population. 
Prop 200 changed the State's voter registration rule to require 
all new registrants to provide documentary proof of U.S. 
citizenship, and after enactment, more than 30,000 individuals 
had their voter registrations rejected by election 
administrators in Arizona. Prop 200 created significant burdens 
for new registrants, and of those with rejected registration, 
less than one-third subsequently registered to vote.
    The law also had a disproportionate affect on Latinos. The 
percent share of Latino voter registration in the State fell 
after the law was enacted, and evidence showed that Latinos 
made up a disproportionate 20 percent of those who did not 
manage to register after an initial rejection, and only 11 
percent of Latinos who were rejected were successful in 
eventually re-registering.
    Meanwhile, the State failed to identify a single instance 
in which an undocumented immigrant registered or voted in 
Arizona. Nationally, more and more research confirms that 
instances of noncitizen voting are exceedingly rare. In fact, 
many non-U.S. citizens are hesitant to provide their personal 
information to the government and are afraid of the potential 
negative criminal and immigration-related consequences that may 
result from improper voter registration or voting.
    Proof-of-citizenship requirements have yet to prove 
effective in making our elections more secure or to be more 
effective than the safeguards against improper registration and 
voting that already exists. Meanwhile, such requirements have 
shown to significantly impede the political participation of 
voters of color.
    On the issue of strict voter identification requirements, 
Latinos and other voters of color disproportionately lack the 
identification documents required to register and vote, and 
they are more likely to be excluded because of this. Obtaining 
the requisite documentation can be a significant and oftentimes 
prohibitive expense, and for some registrants or voters, it 
requires travel to government offices, sometimes ones that are 
far away or inaccessible, waiting in lines, and waiting for 
documents to be received.
    The growing Latino population is often seen by the 
political establishment as a threat in many places. As a 
result, we are likely to see an increase in efforts to 
disenfranchise the Latino electorate, including many 
naturalized citizens, and to limit the influence of our vote. 
Congress must take action to adopt and strengthen policies and 
laws that protect and encourage the participation of each 
eligible voter.
    Thank you, and I look forward to your questions.
    [The statement of Ms. Senteno follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. Thank you for your testimony.
    At this time, the Chair recognizes Ms. Roman for five 
minutes.

                    STATEMENT OF LORI ROMAN

    Ms. Roman. Good morning, Chairman Butterfield, Ranking 
Member Steil, and members of the Committee. Thank you very much 
for this opportunity to testify. I am the President of the 
American Constitutional Rights Union and ACRU Action Fund.
    It is important that we address the duty to ensure access 
to the ballot box while also protecting the integrity of the 
voting process. Put bluntly, we should all agree to work 
together to make it easy to vote and hard to cheat.
    Some of my remarks today refer to an article in the Yale 
Law and Policy Review called ``The Other Voting Right: 
Protecting Every Citizen's Vote by Safeguarding the Integrity 
of the Ballot Box.'' This article is cowritten by a colleague 
of mine, former Ohio Secretary of State and U.S. Ambassador to 
the United Nations Human Rights Commission, J. Kenneth 
Blackwell. Unfortunately, his schedule did not permit him to be 
with us today.
    Our country has spent many decades advancing the rights of 
citizens to fully participate in our Republic. And this, 
unfortunately, has always been a fight between the political 
factions.
    First, we fought, quite literally, for freedom for all 
Americans. And after the Civil War, a war in which my great-
great-grandfather was a Union soldier who was wounded and 
imprisoned at the notorious Andersonville Prison Camp, the 14th 
Amendment to the Constitution was ratified giving citizenship 
to persons born or naturalized in the United States, including 
former slaves. This was passed by Republicans with no Democrat 
support.
    For Black-American men, the right to vote came with passage 
of the 15th Amendment from 1870. The amendment passed with 
Republicans supporting the right to vote and Democrats blocking 
that right.
    Despite the amendment, Black Americans endured violence, 
intimidation, literacy tests, poll taxes, designed to block 
them from voting. These actions were committed mostly by 
southern Democrats.
    In 1920, women were finally granted the right to vote with 
the 19th Amendment, and that was pushed and passed by a 
Republican-led House and Senate.
    As Americans, sometimes we have fought each other on this, 
but we should be proud that we fought hard for freedom and for 
access. And now it is time to fight for voting integrity to 
protect every person's vote from being diluted by fraudulent 
votes.
    Today, we will talk about voter rolls that must be kept 
updated according to Federal law and voter identification, 
which is a popular solution used throughout the world.
    The National Voter Registration Act, or motor voter law, 
makes it easy to register people to vote, but it also mandates 
procedures to update the registrations of those who have moved 
or died to ensure accurate rolls. Unfortunately, the rolls 
across this country are filled with the names of people who 
have moved, died, or are not U.S. citizens.
    Over the years, my organization has brought lawsuits 
against counties which have ignored the law. In one county, 
ACRU found that not one single person that had moved or died 
had been removed from voter rolls for 3 years.
    Some people have tried to reassert that clean voter rolls 
are racist, but moving people from the voter rolls who have 
moved or died has nothing to do with the ethnicity of the 
voter.
    As for voter ID, it seems to me completely unnecessary to 
make the case for something so commonsense of what has been 
used throughout the world. In fact, polls repeatedly show that 
Americans of all ethnicities support voter ID, and it is in 
many State laws.
    I quote the Yale Law and Policy Review article: States have 
significant authority under the Constitution to protect legal 
votes from illegitimate dilution. In 2008, a plurality opinion 
of the Supreme Court asserted that if a State's burdens on 
voting are merely inconvenient and if its restrictions are 
nonsevere and nondiscriminatory, those burdens are evaluated 
under a much less demanding important regulatory interests 
standard that is deferential to policymakers' judgments.
    Some Members of Congress have maintained that requiring 
voter ID is racist, yet Members of Congress voted for the 
Affordable Care Act. This legislation forces every single 
American to obtain health insurance. Compared to receiving free 
identification from the government, the process of purchasing 
medical insurance is complicated, expensive, and often 
daunting. Congress also added a financial penalty for those who 
did not obtain insurance, increasing that burden.
    A few weeks ago, Black leaders signed a letter urging 
Members of Congress to deescalate the rhetoric equating voting 
integrity with Jim Crow. One signer of this letter, Lieutenant 
Governor Mark Robinson, the first Black lieutenant governor of 
North Carolina, testified before the House Judiciary Committee 
saying: The notion that Black people must be protected from a 
free ID to secure their vote is not just insane; it is 
insulting.
    In conclusion, the rights of American citizens to vote and 
to also have their vote protected from dilution by fraudulent 
votes is codified in Federal and State laws, supported by 
Americans, and grounded in common sense.
    Thank you for the opportunity to speak to you today.
    [The statement of Ms. Roman follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. Thank you, Ms. Roman, for your 
testimony.
    That concludes the testimony of the witnesses.
    We will now move into member questions. And it looks like 
from my list, Mr. Aguilar, you should go first. You are 
recognized for five minutes.
    Mr. Aguilar. Thank you, Mr. Chair. And I want to thank the 
Ranking Member Steil as well for putting this panel together 
and this hearing on the books for us.
    First, I wanted to start with Dr. Lajevardi. As you know, 
voter ID laws can take on a variety of forms, and you have 
talked about this. Some States, for example, require that 
voters present a photo ID, while other States request but do 
not require identification.
    Does your research provide any insight into whether 
particular types of voter ID laws have greater or lesser impact 
on turnout of minority voters?
    Ms. Lajevardi. Thank you so very much for asking this 
question, for allowing me to offer some of my research.
    Our research has mostly looked at strict ID laws compared 
to other laws. As you know, the strictest types of ID laws were 
introduced in 2006 in Indiana and then in 2008 in Georgia. So 
what our research has done is really looked at the effects of 
these strict ID laws, for the most part, in comparison to their 
counterparts.
    And so the results that I spoke about in my written 
testimony and also my oral testimony refer to the strictest 
forms of these laws.
    Mr. Aguilar. I appreciate that. And can you speak to the 
harm that this question can impose on minority voters?
    Ms. Lajevardi. Certainly. I can draw from my testimony. In 
my first paper in 2017, we found that in general elections, 
Latinos in our survey were 10 percent less likely to turn out 
in States with strict identification laws than in those States 
without strict IDs laws, all else equal. And these effects were 
almost as large in primary elections where strict ID laws can 
be expected to depress Latino turnout by 9.3 percentage points, 
Black turnout by 8.6 points, and Asian-American turnout by 12.5 
points.
    And so given the already low turnout of most of these 
groups across the country, these declines are all the more 
noteworthy.
    I want to say one thing, if I may, about the gaps as well. 
So these laws don't only diminish minority participation in the 
survey sample that we were looking at, but they also increase 
the gap in the participation rate between Whites and non-
Whites. So, for instance, for Latinos, the predicted gap more 
than doubled from 4.9 percentage points in States without 
strict ID laws to 13.5 points in States with strict photo ID 
laws in general elections. And it more than tripled, from 3.4 
points to 13.2 points, in primaries. And I can go on and on 
with respect to other racial groups, but I think that might 
paint the picture.
    Mr. Aguilar. Thanks, Dr. Lajevardi.
    Ms. Senteno, research has shown that proof-of-citizenship 
laws disproportionately hurt Latino and Hispanic voters who 
face difficulty in obtaining documentation of citizenship, like 
a passport. These documents are often costly and could require 
taking time off of work to get these documents. And several 
States provide proof of citizenship--or have proof-of-
citizenship laws that have been found to be preempted by the 
National Voter Registration Act, yet, oftentimes, litigants--it 
takes several years to obtain a judicial ruling striking down 
these laws.
    What can Congress do to make it easier for litigants to 
obtain timely and effective relief from unlawful proof-of-
citizenship laws?
    Ms. Senteno. Thank you for that question, Representative 
Aguilar. So one thing that Congress can do is work on 
legislation to restore the Voting Rights Act. As you have 
mentioned, litigation is costly and time-consuming, and it can 
take many years in some instances to get a resolution that 
allows voters to be able to access the right to vote freely and 
fairly. And so one thing that Congress can and should do is 
work to ensure that we are doing all that we can to enact 
legislation that restores the Voting Rights Act as a way to 
ensure that those localities, those States that are most likely 
to engage in discrimination with a history of discrimination 
and that those practices that are most often used to 
discriminate against voters of color can be addressed before 
the election change takes place.
    In addition to that, there is legislation within the H.R. 
4, the Voting Rights Advancement Act, that addresses how to 
also make litigation more accessible and more timely for those 
private litigants who want to challenge voter laws that may not 
be included or may not be covered by the [inaudible] formulas. 
And so those are things like addressing preliminary injunction 
standards.
    Mr. Aguilar. Thanks, Ms. Senteno. I appreciate it.
    Before my time is up, Mr. Chairman, I would like to seek 
unanimous consent to enter into the record three reports 
focusing on the harms of voter ID laws into the record: The 
first by Mr. Barreto, who is on our second panel; the second by 
Ms. Hajnal, Voter Identification Laws and Suppression of 
Minority Voters; and the third titled, A Disproportionate 
Burden: Strict Voter Identification Laws and Minority Turnout.
    Chairman Butterfield. Without objection.`
    Chairman Butterfield. Thank you. Thank you, Mr. Aguilar.
    Do you yield back, Mr. Aguilar?
    Mr. Aguilar. I yield back, Mr. Chairman.
    Chairman Butterfield. At this time, the Chair will 
recognize the chairman of the--excuse me, the Ranking Member of 
the Subcommittee, Mr. Steil.
    Mr. Steil. Still the Ranking Member, but thank you very 
much, Mr. Chairman. I appreciate you having today's hearing, 
unless you want to hand me the gavel, but I am guessing not.
    Chairman Butterfield. Keep us alive, yes.
    Mr. Steil. Let me dive in in the short time I have.
    We heard a couple of folks speak in their opening remarks 
regarding equal implementation. I think it is an important 
topic to bring up, and I think we have actually seen in other 
areas where photo ID is used, equal implementation being an 
issue, but also being addressed.
    In fact, every time I go through TSA, to the best of my 
knowledge, every single person has to show their ID. In fact, I 
grabbed a six-pack of beer at Walmart the other day. The 
cashier recognized me, said, ``Hello, Bryan,'' and then asked 
for my ID.
    In the State of Wisconsin, every single person is asked for 
their ID, I think in part to remove any sort of 
disproportionate impact to any given group of individuals. It 
seems like a reasonably straightforward solution to address 
some of the challenges that may have been brought up in some of 
those opening comments. I think the private sector has 
addressed that, and I think it is maybe something other States 
outside of the State of Wisconsin might want to look at.
    Let me dive in to Ms. Lori Roman, if I can. Do you believe 
voter ID increases confidence in the integrity of the election 
process?
    Ms. Roman. Yes. And I believe one of the other presenters 
presented that Americans overwhelmingly agree with it of all 
ethnicities. So it increases integrity, and it also ensures 
that every single person's vote is not diluted by fraudulent 
votes. So every person, every ethnicity should desire to not 
have their vote diluted by a fraudulent vote.
    Mr. Steil. Let me follow up. In your testimony, you quote 
from a Yale Law and Policy Review article authored by the 
former Ohio Secretary of State. In that, he said discriminatory 
intent is the key determination for voter ID laws.
    In your opinion, do voter ID laws have a discriminatory 
intent?
    Ms. Roman. No. If applied--as you indicated, if applied to 
everyone and without any subcategories. The Supreme Court has 
already looked at this. So in 2008, plurality of the Supreme 
Court asserted that if the States' burdens on voting are merely 
inconvenient and if its restrictions are not discriminatory, 
those burdens are evaluated in such a way to defer to the 
policymakers' judgment.
    Mr. Steil. Thank you.
    I am going to jump, now, over to Dr. Nazita Lajevardi, if I 
can, for a moment.
    Two of your studies use self-reported data about the impact 
of voter ID on the propensity to vote, yet there has been other 
studies using actual turnout data that have found that there 
was not a difference in turnout in States based on voter ID.
    Would your data, do you think, have been different if you 
had used empirical data rather than self-reported information?
    Ms. Lajevardi. Thank you for that question and for giving 
me a chance to respond.
    So our first two studies looked at survey data from a 
national representative----
    Mr. Steil. And I don't want to be rude, and you can add 
things into the record, but I am limited for--I have got 90 
seconds left. Do you think it would have been different? Yes or 
no?
    Ms. Lajevardi. So our third study did show the same effect, 
and that was based on----
    Mr. Steil. So, in your opinion, you don't think it would 
have been different if self-reported to the empirical data.
    Second question: So in your third study, you looked at 
turnout changes between 2012 and 2016 in four States and, 
according to your testimony, compared racially diverse counties 
in those States against majority White counties. Your study 
compared voter turnout in racially diverse counties in those 
four States to racially diverse counties in States that did not 
implement strict voter ID laws and how they would compare.
    Question: In your analysis and in your model, did your 
study take into effect variables that could affect turnout, in 
particular, such as having a historically bad candidate like 
Hillary Clinton?
    Ms. Lajevardi. That was not a variable that we controlled 
for, but we did control for other statewide covariates that 
might have----
    Mr. Steil. So you did not control for the difference maybe 
between a Barack Obama and, in my opinion, a historically bad 
candidate like Hillary Clinton, on the impact of minority voter 
turnout?
    Ms. Lajevardi. We simply just looked at the differences in 
voter turnout in those counties in 2012 and in 2016.
    Mr. Steil. I will not declare that I have a Ph.D. in 
statistics, but I can tell you from an empirical data 
standpoint, just walking around and talking to people in many 
of these types of communities, that might very well be a 
worthwhile thing to look to see if you can control for it, 
because I think it is going to show up in the empirical data.
    And so, with that, Mr. Chairman, looking at the time, I 
appreciate you giving me the opportunity, and I will yield 
back.
    Chairman Butterfield. I thank the Ranking Member.
    At this time, the Chair recognizes Ms. Leger Fernandez for 
five minutes.
    Ms. Leger Fernandez. Thank you, Chairman Butterfield, for 
holding this important hearing, and thank you to our witnesses 
for being here to shine a light on the barriers we face today 
with actual data rather than anecdote.
    Mr. Campbell, I am very appreciative to you providing the 
panel with a history of the repression of Native American 
voters. In New Mexico, where I litigated some of these cases, 
you know, it wasn't until the 1960s that Native Americans won 
the last court case saying they had the right to vote wherever 
they lived.
    I found it interesting the way you tied historic 
discrimination of Native American voters to voter ID laws today 
with the example from North Dakota where, because--precisely 
because of high Native American voter turnout, we then saw 
these more restrictive voter ID laws, because I think that is 
what we are seeing today, so I appreciated that.
    Mr. Campbell, do you think you could respond a bit to the 
questions that we have been hearing, as well as the idea that 
this is not a problem and should not be considered a problem, 
the issue of voter ID?
    And then, maybe, tie that to why litigation is not the 
solution, that we should try to find a solution to it 
otherwise; for example, in Congress and in some of our laws?
    Mr. Campbell. Yes. Thank you, Representative Fernandez.
    I think absolutely we are seeing, in Indian Country, it is 
a problem. With the high levels of poverty, the distance it 
takes to get to the DMV, lack of access to transportation, 
there absolutely is a disproportionate burden on Native voters 
through the requirement of strict voter ID laws. And the 
Federal district court found many facts that supported this 
evidence, and, so, I think it absolutely is a problem that is--
needs to be addressed.
    In terms of utilizing litigation to address the problem, it 
is extremely costly and very time consuming and very 
complicated to bring litigation to try and change this problem, 
and require more forms of broadly accepted IDs like a utility 
bill, a bank statement, or even a letter from the Tribe that 
says that voters are qualified and live within the district.
    So I do think it--you know, it is not the best solution to 
the problem given its cost and expense, but it is certainly--
voter ID is a problem for Indian Country.
    Ms. Leger Fernandez. Thank you, Mr. Campbell.
    And I want to also turn to Dr. Atkeson with the University 
of New Mexico, making us proud here today.
    But I did--your research found that election officials 
could administer facially nondiscriminatory election laws in a 
discriminatory manner, right? As a Nueva Mexicana, I read with 
concern the idea that, even in New Mexico, where we actually 
have a history of higher participation by Hispano voters, that, 
as you put it, the local street bureaucrats would ask Hispanos 
for ID more often than non-Hispanos.
    Could you describe what factors contribute to that?
    Ms. Atkeson. Sure. So the--the factors that seem to 
contribute to that are the very complicated laws that we have 
that allow different types of voters to give different types of 
IDs, and the fact that different types of voters are required 
different ideas--IDs. So new voters, for example, who haven't 
voted before, have to show a physical form of ID.
    So some voters do have to do it. And, once you have sort of 
a--you know, a setup like that, it creates more complications 
for both voters, and for poll workers. What are they supposed 
to do? And, when in doubt, poll workers rely on their own sense 
of what they should be doing, what their own normative 
judgments are about--about, you know, giving ID or not, and how 
they decide to do that.
    Ms. Leger Fernandez. So H.R. 1 allows voters to certify 
their identification under penalty of perjury. Now, would an 
uniform application like this address the unequal treatment and 
barriers you have identified?
    Ms. Atkeson. I believe so. I think that if you had, you 
know, a single criteria, that that would suggest that that 
would be a way to move forward to create uniform policies 
across voters.
    Ms. Leger Fernandez. And this could be to the panel, but, 
perhaps, Mrs. Senteno. Ranking Member Steil said that higher 
voter turnout in 2020 shows that voter ID laws don't deter 
people from legally voting.
    Do any of you have a response to this assertion? Was it--
was it that the voter turnout doesn't matter? I see I have run 
out of time, but real quickly, perhaps a real quick answer, Ms. 
Senteno.
    Ms. Senteno. I will answer very quickly and say that, you 
know, evidence has shown--more studies are coming out that 
demonstrate that these voter ID laws do restrict Latino voters. 
And, as we increase in the share of the electorate, the more 
and more people who are prevented from voting, even if voter 
turnout is not completely--if that share of the Latino 
electorate is not increasing, then studies we see are showing 
that that is the case.
    Ms. Leger Fernandez. Thank you.
    And, Mr. Chair, as my time has come to an end, I would like 
to request unanimous consent to enter into--two documents into 
the record.
    The first is ``The New Barrier to Participation: 
Heterogenous Application of Voter Identification Policies,'' by 
Dr. Atkeson.
    The second is ``Obstacles at Every Turn'' by the Native 
American Rights Fund.
    Chairman Butterfield. Without objection, both documents 
will be received.
    Ms. Leger Fernandez. Thank you, Mr. Chair. I yield back.
    Chairman Butterfield. I thank the gentlelady.
    At this time, the Chair will recognize Mr. Davis, the 
Ranking Member of the full committee, for five minutes.
    Mr. Davis. Thank you, Mr. Chair. And thank you again to all 
the witnesses. Great to hear from many of you.
    First off, Ms. Roman, there has been a lot of talk about 
voter turnout. And, again, as I mentioned in my opening 
statement, I think it is tragic that we don't talk about the 
good things we are doing in this country that have led to 
historic midterm turnout in 2018 and in 2020, across all 
demographics. Instead, we talk about what divides us and what 
could lead to lower turnout in the midst of historic turnout.
    Now, taking a look back at history--I know you mentioned 
some historical facts during your opening statements, Ms. 
Roman. I want to ask you a quick question: Was voter turnout--
did we lose her? Impeccable timing.
    There you go. Are you back----
    Ms. Roman. I am back [continuing].
    Mr. Davis. Ms. Roman.
    Okay. In--with the initial Voting Rights Act that passed 
with Republicans leading that in the 1960s, could you tell us 
if voter turnout was used as part of maybe determining what a 
covered jurisdiction would be?
    I will go ahead and answer for her if she keeps losing----
    Ms. Roman. Okay. There. I heard you this time.
    Could you just repeat the question quickly. I am sorry 
about that.
    Mr. Davis. Yes. Was voter turnout utilized in the initial 
Voting Rights Act to determine what covered jurisdictions would 
be covered under?
    Ms. Roman. I am--I am not aware of whether it was or not. I 
am sorry.
    Mr. Davis. It was. It was the main driver of the voter 
turnout for the presidential race in 1964, or was utilized. So, 
voter turnout has been part of determining what works and what 
doesn't work.
    Actually, let me move on to Ms. Senteno. And, Ms. Senteno, 
I appreciate your work that you are doing on behalf of Latino 
voters all throughout the country. And it is not just about 
voter turnout. It is about having a Latino representation, 
right, in Congress? Is that true?
    Ms. Senteno. So that is one--sorry. In terms of voting 
rights in general, representation is certainly one--one thing 
that law does--works to increase through the litigation that we 
bring. That may be through litigation against at-large systems 
or discriminatory redistricting, or, in other instances, other 
cases that, you know, deal with the ability to elect.
    So representation is one aspect of that, but, when we are 
talking about voter ID laws and ballot--proof of citizenship 
requirements, really the focus there is the studies and 
evidence that show that Latinos are hampered by their ability 
to cast their ballots because of these restrictions.
    Mr. Davis. Well, we have seen historic turnout, and 
historic voter participation in some of these demographics, and 
I certainly hope that continues. And I certainly hope that--I 
certainly hope MALDEF plays a role in touting some of the 
successes.
    And, as you look ahead, though, redistricting is coming up. 
I hope MALDEF's concern about a lack of Hispanic representation 
maybe in States like Illinois--are you engaged, or is your 
organization engaged to ensure that the growth of Latino voting 
population in my home State of Illinois is part of a possible 
new congressional seat, since Hispanics are clearly 
underrepresented in the Illinois congressional delegation?
    Ms. Senteno. So MALDEF does engage in redistricting public 
education and, when necessary, we will engage in litigation to 
address, you know, redistricting plans that are discriminatory. 
And so MALDEF does have a regional office in Illinois, and we 
are engaged in public education efforts to make sure that 
community members are aware of the redistricting process, how 
it works, and how they can be engaging in advocating for their 
own community as Illinois and local jurisdictions redraw their 
district lines.
    And that is an activity that we engage in across the 
country in many different locations, including Texas and 
California, and we will be engaging with our partners on the 
ground to make sure that community members are empowered with 
information. But, in addition to all of that work, yes, where 
necessary, MALDEF does bring litigation when redistricting 
plans are discriminatory.
    Mr. Davis. Would you consider it necessary to have a 
lawsuit or put forth litigation if there is one Hispanic Member 
of Congress from the State of Illinois with--I believe I have 
heard this statistic--40 percent increase over the last decade 
of voting age Latinos and only one Hispanic in the district?
    Ms. Senteno. I think it would certainly be too early for us 
to commit to what we might do in terms of litigation, or a 
litigation strategy, with respect to a redistricting plan in 
Illinois, even in the scenario that you have just described to 
me. We obviously would take it under consideration and look 
closely at what that districting plan looks like, and how it 
included, or how it addressed the Latino community throughout 
Illinois, and in those pockets where there are significant 
Latino population.
    Mr. Davis. Yeah. We will look very closely, too, at equal 
representation of litigation in Democratic versus Republican-
led redistricting States, too.
    Look, thank you again for your responses. Thanks to 
everyone.
    And, Mr. Chair, I yield back.
    Chairman Butterfield. Thank you very much, Mr. Davis.
    And thank you, Rodney, for making reference to the 1965 
Voting Rights Act. I remember it so very well. I had just 
finished high school a few weeks before the VRA was passed.
    And, as I recall, one of the most significant parts of the 
VRA, as you said, was that the legislature was bipartisan. 
Democrats and Republicans came together and passed the VRA. It 
was supported and demanded, actually, by President Lyndon B. 
Johnson at the time, right after the Selma to Montgomery 
massacre.
    So thank you for bringing that up. I looked it up a moment 
ago. It looks like only 74 Members of the House voted against 
it. 328 Members supported it on August 3rd, 1965. So thank you 
for mentioning that fact. It is something we are very proud of.
    At this time, the Chair will recognize the gentlelady from 
the suburbs of Philadelphia, my friend, Mary Gay Scanlon, for 
five minutes.
    Ms. Scanlon. Thank you very much, Chairman Butterfield, for 
the opportunity to examine the facts about strict voter ID 
laws, or, as our colleague said, the reality of the impact of 
those laws.
    As a Representative from Pennsylvania, and someone who 
spent decades representing voters seeking access to the ballot, 
we recently lived that reality, and I saw the detrimental 
impact of strict voter ID laws firsthand.
    Unfortunately, voter ID requirements that may seem like 
common sense to some turn out to have a serious antidemocratic 
impact in practice. So, I welcome the opportunity to examine 
the perception that voter ID laws are neutral or even 
necessary, when, in fact, the reality is different.
    In March 2012, Pennsylvania's then-Republican Governor 
signed into law a bill passed by our legislature, which, at the 
time, was all Republican, which mandated that voters provide 
certain types of identification each time they voted. So it 
imposed strict new restrictions on the types of eligible 
identification.
    Under this new law, the lead plaintiff in the case, which 
ultimately succeeded in overturning that law, was Viviette 
Applewhite, a 92-year-old African American woman who had voted 
in every election since 1960. She would have been unable to 
cast her ballot in 2012 despite having worked for our country 
as a welder during World War II, marched with Dr. Martin Luther 
King during the civil rights movement, et cetera. She did not, 
at age 92, have a valid driver's license and, at the age of 92, 
lacked access to her birth certificate.
    Her story was the same as hundreds of thousands of 
Pennsylvanians who, due to circumstance, age, or ability, 
lacked the types of ID which were newly required. In fact, 
expert testimony at the trial established that more than half a 
million, or more than 6 percent of Pennsylvania's registered 
voters, lacked the types of ID required by the new law. And, 
for context, the number of voters who would have been barred 
from voting in 2012 was more than six times the margin by which 
President Biden beat the former President in Pennsylvania in 
the 2020 election.
    So, as for the statement that voter ID has no 
discriminatory intent, we also saw that that wasn't true in 
Pennsylvania. Republican leadership bragged on tape that the 
strict voter ID law was one of the legislative victories his 
caucus had chalked up in his efforts to flip the State's 
electoral votes for the Republican candidate in the 2012 
presidential election.
    And, in fact, the data in the report offered as expert 
evidence at that trial showed that three times the number of 
Democratic--Democrats and Independents would have been 
disenfranchised by that law as would have been Republicans.
    Nationally, we know that 11 percent of Americans lack the 
type of identification mandated by strict voter ID laws, or at 
least of the type that were signed into law in Pennsylvania. 
The time, fees, and documentation required to get these IDs are 
insurmountable for many Americans, especially older Americans, 
folks with disabilities, and, depending on the nature of the 
ID, also students and married women.
    So I saw that firsthand as I helped to organize and 
participated in free legal clinics to assist thousands of 
Pennsylvanians to obtain ID before that law was struck down. 
And we knew that we couldn't reach tens of thousands of others.
    So, as we consider proposals to protect the integrity of 
our elections, it is important to weigh the facts--in other 
words, the actual benefits, which remain extremely speculative, 
against the very real harm of such laws, and it is also why I 
suspect--I support the practice--practice-based preclearance 
provisions in H.R. 1, the For the People Act.
    So, Dr. Lajevardi, you have conducted several studies 
analyzing the impact of strict voter ID laws on minority 
voters. Can you just talk about the implicit bias of the types 
of IDs that are chosen? For example, drivers' licenses when you 
have populations that don't drive; birth certificates when you 
have a history of a population that, perhaps, had at-home 
births, hunters' licenses, as opposed to student licenses--
student IDs.
    Ms. Lajevardi. Yes. Thank you so much. What I will say is 
that no two States has the same voter ID law, and so, the 
requirements of each of these State laws that are constantly 
being introduced, passed, or are not passed, they vary from 
State to State, and, so, there is a great deal of confusion 
that comes along with them. There is a high cost for actually 
knowing what kinds of laws--individuals need to bring to the 
polls.
    I, myself, have not exactly studied this, but I will point 
the Subcommittee to a paper by Bernard Fraga and Michael Miller 
that is forthcoming in the Journal of Politics, where the 
authors look at a case study in Texas which had implemented a 
strict voter ID law in 2014. But then, a last-minute Federal 
court decision allowed Texans without qualifying documents to 
vote in the 2016 election.
    And what they found was that 16,000 Texans who would have 
been disenfranchised for lack of compliant ID were able to vote 
in 2016 because of this change. And, when asked why they--they 
were not--they didn't have the right type of ID, the authors 
found that individuals actually had--many of them had had their 
licenses taken away. Many had moved and hadn't gotten proper 
ID--Texas ID.
    And, so, there is a number of reasons for why individuals 
would not have the right kind of ID to participate in that--in 
a given election.
    Ms. Scanlon. Thank you. And I see my time has expired.
    I would just seek unanimous consent to introduce into the 
record the memorandum opinion of Judge McGinley in the 
Pennsylvania case, Applewhite v. The Commonwealth of 
Pennsylvania, that outlines the judge's findings in support of 
his decision that the strict voter ID law in Pennsylvania was 
an unconstitutional restriction on voters' rights.
    I yield back.
    Chairman Butterfield. Without objection, this memorandum 
will be received. Thank you very much, Ms. Scanlon.
    [The information follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. At this time, the Chair will 
recognize himself for five minutes, and I begin with Dr. 
Atkeson. Again, again, again, Dr. Atkeson, thank you for your 
testimony.
    You know, to my satisfaction, it has been demonstrated time 
and time again that voter ID laws disproportionately impact 
racial minorities. It certainly may impact a lot of people, but 
it disproportionately impacts racial minorities. That is a 
fact.
    My question to you, Dr. Atkeson, is: What can we do? What 
can Congress do to reduce the risk that voter ID laws will be 
administered in a discriminatory manner?
    Ms. Atkeson. Well, creating uniform policies across States 
would be one way to create consistency, probably the best way.
    Chairman Butterfield. Is there a significant disagreement 
among the nonpartisan experts that voter ID laws 
disproportionately impact racial minorities?
    Ms. Atkeson. I think there is some papers that show 
different effects. Some papers show--so there--you know, there 
are various papers that show different things depending on how 
you look at it.
    Chairman Butterfield. And let me move to Matthew Campbell. 
Mr. Campbell, you have successfully litigated, I am told, to 
protect Native Americans--almost said Native African Americans. 
But you have litigated to protect Native Americans from 
discriminatory voter ID laws.
    What are the unique circumstances facing Native American 
voters that render strict voter ID laws particularly 
burdensome?
    Mr. Campbell. Thank you, Mr. Chairman.
    I think one of the biggest things that, we saw in North 
Dakota was the requirement of a residential address where many 
homes on the reservations in North Dakota just simply did not 
have a residential address. So, it was a requirement that was 
essentially impossible to comply with.
    The other things we see are the high levels of poverty on 
many reservations, the lack of access to transportation, and 
the disproportionately long distances to government offices, 
like the driver's license sites, or DMVs. All of these things 
place a disproportionate burden on Native American voters to 
obtain voter IDs.
    Chairman Butterfield. And thank you for that, Mr. Campbell.
    I recalled a couple years ago, when we held this hearing 
out in North Dakota, there was an abundance of evidence from 
that community that so many people do not have reservation 
addresses and how that discriminates against them and prevents 
them from having the ID that the law requires. So thank you for 
including that in the record again today.
    Let me go over to the professor from Michigan State 
University. Some studies of voter ID laws have found that these 
laws do not necessarily disproportionately decrease turnout of 
minority voters. Yet, your research has found that strict voter 
ID laws do appear to have different effects by race and 
ethnicity.
    Help me. What is the explanation for these different 
results?
    Ms. Lajevardi. Certainly. Thank you for asking that 
question,
    So, there have been a myriad of studies that have begun to 
study the effects of voter ID laws beginning in the late 2000s 
through the present day. In the late 2000s, the early studies 
that came about looked at the influence of these ID laws before 
the strictest types of laws were actually introduced into State 
legislatures.
    And, so, you know, scholars really did not have a chance to 
actually understand the breadth of these voter ID laws. What is 
different about our research is that, now, by the time that we 
do our studies, 51 elections have passed--Federal elections 
have passed in which we can actually assess the impact of voter 
ID laws over time.
    And, certainly, as more data has become available, more 
scholars are studying this question. And, while each of these 
data sets, or each of these scholars, or papers, are 
approaching the question differently, what you can see is a 
consistent negative effect on voter turnout.
    Now, sometimes our estimates are small. Sometimes they are 
larger. It depends on how you slice and dice your data. But I 
can--my read of the summary--my read of the literature and my 
summary of it is that these laws do, in fact, pose a 
disproportionate, negative, strong, consistent depreciation of 
minority votes.
    Chairman Butterfield. Thank you. Thank you very much for 
those responses. I am going to conclude at this time and yield 
back the balance of my time.
    Let me thank you. The member questions are now concluded, 
and I want to thank each one of the members of the first panel 
for your testimony today. It has been very, very enlightening 
and will become a very integral and important part of this 
record. So thank you very much.
    We are now going to move to our second panel of witnesses. 
Joining us today--and I hope they are all in place--and let me 
ask the staff if they are all in place. They are.
    Joining us today on our second panel are Dr. Matt Barreto 
of the University of California, Los Angeles.
    Terry Minnis is with the Asian Americans Advancing Justice 
and today, it is AAAJC.
    The next witness is Kira Romero-Craft. She is with the 
LatinoJustice Organization, PRLDEF. Am I right? Okay.
    And finally--I should have rehearsed this before I started, 
Mr. Ranking Member, but our next witness is Harmeet Dhillon of 
the Dhillon Law Group.
    Dr. Barreto is Professor of political science and Chicano 
and Central American studies at the University of California at 
Los Angeles and founder of the Research Center Latino Policy & 
Politics Initiative. His research examines the political 
participation of racial and ethnic minorities in the United 
States, and his work has been published in numerous leading 
scholarly journals.
    In addition to his research on Latino voting patterns, Dr. 
Barreto has conducted extensive research on voting rights. He 
has been an expert witness in numerous voting rights lawsuits.
    Terry Minnis is the Senior Director of Census and Voting 
Programs with the Asian Americans Advancing Justice 
organization. She is a widely respected authority on voting 
rights. She was one of the key leaders in the campaigns to 
reauthorize the Voting Rights Act of 2006, and I have been in 
Congress long enough to remember and have participated in that. 
She was a key leader in the campaign to reauthorize the VRA in 
2006.
    And I might say to my Republican friends, it was Mr. 
Sensenbrenner. Mr. Steil, you know that very well. It was Mr. 
Sensenbrenner and President Bush and others who embraced the 
2006 reauthorization. And so that, too, was bipartisan.
    But the--also, the Supreme Court's decision in Shelby 
County v. Holder, she was very much a part.
    Ms. Minnis has published several articles, chapters in all 
four editions of the ABA's Elections Handbook, and has been 
counsel on numerous amicus briefs filed before the Supreme 
Court on voting rights cases.
    Kira Romero-Craft. Kira is the Managing Attorney for the 
southeast office of LatinoJustice PRLDEF. I always have trouble 
with that, PRLDEF. Her work focuses on immigration--immigrants' 
rights, voting rights, economic justice, and criminal justice 
reform.
    In the area of voting rights, she successfully litigated to 
compel the Florida Secretary of State and election supervisor 
in 32 Florida counties to provide Spanish language voting 
materials to Spanish-speaking voters educated in Puerto Rico.
    Next is Harmeet Dhillon. Harmeet is the founding partner of 
the Dhillon Law Group, Incorporated. Dhillon's broad experience 
also encompasses securities and entertainment, employment 
discrimination, and civil rights matters. Dhillon also 
represents clients across California in election and campaign 
law matters, ranging from general compliance and ethics 
representation for partisan and nonpartisan contenders to 
ballot description contests, and that is a big deal in 
California for those of you who are not aware. She is regularly 
retained by candidates and campaigns for advice on complex 
legal issues.
    Dhillon is a graduate of Dartmouth and the University of 
Virginia School of Law.
    I am going to recognize each of the witnesses for five 
minutes, and we will begin with Dr. Barreto. You are now 
recognized.

   STATEMENTS OF DR. MATT BARRETO, PROFESSOR, UNIVERSITY OF 
 CALIFORNIA, LOS ANGELES; TERRY AO MINNIS, SENIOR DIRECTOR OF 
CENSUS AND VOTING PROGRAMS, ASIAN AMERICANS ADVANCING JUSTICE; 
  KIRA ROMERO-CRAFT, DIRECTOR, LATINOJUSTICE PRLDEF; HARMEET 
       DHILLON, ESQ., FOUNDING PARTNER, DHILLON LAW GROUP

                 STATEMENT OF DR. MATT BARRETO

    Mr. Barreto. Thank you to the Committee for the invitation 
to speak today. The matter of free and fair elections is the 
bedrock of our democracy.
    My name is Matt Barreto, and I am a tenured professor at 
UCLA, where I am also the Director of the UCLA Voting Rights 
Project. I have researched access to voting for more than 15 
years, and provided expert reports and expert testimony in 
seven different State and Federal cases related to voter 
identification laws.
    Across these States, my reports have been credited by both 
Democratic- and Republican-appointed judges as providing clear 
and accurate data on the impacts and the burdens of voter ID 
laws. I have also examined the national trends on access to 
voter identification and underlying documents, and I have 
published numerous peer-reviewed scholarly articles and book 
chapters on the topic of voter access and voter identification 
laws.
    Every single adult American citizen who is eligible to vote 
should enjoy an equal access to the ballot. It should not be 
harder for some citizens to vote. We should not erect more 
barriers for just some citizens. Americans who are eligible to 
vote should be able to register and cast their ballot without 
undue obstacles and burdens.
    And, as you have no doubt heard, there is no widespread 
threat of voter fraud in our elections. This topic has been 
thoroughly analyzed by political scientists, government 
commissions, and independent researchers, and the conclusion 
has been overwhelming, that our elections are free and fair, 
and the allegations of voter fraud are a myth. In response to 
this hypothetical myth of voter fraud, some States have enacted 
strict voter identification requirements for voting, often 
called voter ID laws.
    In 2006, as the voter ID debate was being implemented and 
debated, I began to study the consequences of such laws. From a 
combination of analyses using official voter files; State ID 
databases, such as drivers' license records; and validated 
public opinion surveys, there is an unmistakable trend. Black, 
Latino, and immigrant communities are statistically less likely 
to have a valid ID for purposes of voting as compared to White, 
non-Hispanic populations.
    What is more, in many States, the ID laws have specific 
rules and caveats so many people wrongly believe that they have 
a valid ID and do not attempt to navigate the bureaucracy to 
get a new one.
    For instance, an expired ID does not count in most states. 
The name on the ID must be an exact match; no nicknames or 
changes due to marriage. The address listed must be an impact 
exact match, and P.O. Boxes are often not allowed. And there is 
a maze of which exact ID counts.
    In many places, even official IDs issued by a government 
agency, such as a university school ID, or Social Services IDs, 
library cards, or others, do not count. So, for millions of 
Americans who do have some sort of ID, they are excluded from 
voting because of strict and specific rules in their specific 
States.
    But, then, there are millions of people who just don't have 
any sort of government-issued photo ID in the first place. 
According to the 2019 Census American Community Survey, 8.5 
percent of all households do not have any car or vehicle 
available. While drivers' licenses seem ubiquitous to those of 
us who fly back and forth to the Nation's Capital, we have to 
put ourselves in the shoes of millions of Americans who don't 
own a car, have never been on an airplane, yet they have a 
right to vote without undue burdens. And these burdens fall 
disproportionately on Black, Latino, and immigrant communities.
    Beyond voter ID laws, my report has also examined the 
importance of bilingual voting materials. According to data 
from the 2015 Census ACS, there are 10 million U.S. citizens 
eligible to vote who do not speak English well, with the 
largest population being U.S. citizens who are Latino, at over 
5 million.
    When it comes to language access, voting rights provisions 
are settled law. Where language minority populations reached 
thresholds, State and local jurisdictions must provide non-
English access to all voting materials that are otherwise 
available in English.
    Research in political science has documented with clear 
evidence that access to Spanish, Asian, and Native or 
indigenous language voting materials increase voter 
participation rates among impacted minority groups. These 
findings are consistent across all different language criteria.
    But, similar to voter identification laws, the research has 
demonstrated an inconsistent application with many covered 
jurisdictions not aware or not providing the proper non-English 
voting materials. This has a tremendously negative impact on 
those communities' ability to understand and participate in our 
elections.
    Thank you.
    [The statement of Mr. Barreto follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. Thank you. Thank you very much.
    At this time, the Chair recognizes Ms. Minnis for five 
minutes.

                  STATEMENT OF TERRY AO MINNIS

    Ms. Minnis. Good afternoon, Chairman Butterfield, Ranking 
Member Steil, and members of the Subcommittee.
    My name is Terry Ao Minnis, and I am the Senior Director of 
Census and Voting Programs at Asian Americans Advancing 
Justice, AAAJC. We are a national nonprofit, nonpartisan 
organization dedicated to advancing the civil and human rights 
for Asian Americans and building and promoting a fair and 
equitable society for all.
    One of our top priorities is the elimination of 
discriminatory barriers to meaningful civic participation by 
Asian Americans. I want to thank you for this opportunity to 
appear before the Subcommittee today to provide comments on the 
Asian American electorate, and how the language barrier and the 
lack of multilingual support, impede our community's ability to 
achieve full political participation.
    Asian Americans have been the Nation's fastest-growing 
racial group for well over a decade. We have seen a similar 
increase among the Asian American electorate with over 11.5 
million eligible Asian American voters in 2020, a 150 percent 
growth over the last two decades. The 2020 election also showed 
a 27 percent increase in registered Asian Americans, and a 36 
percent increase in Asian Americans who voted, compared to the 
2016 election.
    At the same time, we once again saw the consistent double-
digit gap with White voters for both voter registration and 
turnout that we have seen in election after election. This 
persistent gap highlights systemic issues and barriers facing 
Asian Americans' free and fair access to the ballot.
    One of the primary barriers derives from the historical 
discrimination that denied Asian Americans the rights held by 
U.S. citizens for most of the country's existence as Federal 
policy barred immigrants of Asian dissent from becoming U.S. 
citizens, and from even being allowed entry into the country.
    Because immigration from Asia was not reopened until 1965, 
today, over two out of three Asian Americans are born outside 
the United States, with almost three-quarters of Asian 
Americans speaking a language other than English at home.
    Additionally, almost a third of Asian Americans are limited 
English proficient, or LEP, and have some difficulties with the 
English language. As a result, a major obstacle facing Asian 
American voters is the language barrier. Navigating the voting 
process can be complicated and overwhelming, even for those who 
are fluent in English.
    When multilingual support is properly provided, civic 
engagement increases. When multilingual support is withdrawn or 
denied, language barriers are exacerbated, which leads to less 
voters participating in our democracy.
    LEP voters face threshold barriers to understanding the 
election process, such as how to register, locate their polling 
place, and learning about absentee and early voting options. 
Some will have emigrated from a country with vastly different 
democratic and voting systems. They may not be able to access 
election administration websites, which serve as a primary 
source of information for many voters, because most are only in 
English.
    Telephone multilingual support is often also not a viable 
option for LEP voters. Even where there is bilingual staffing 
available that could provide multilingual help, it can be 
cumbersome and difficult to reach that staff person. If a voter 
can navigate all of that, they must next overcome challenges in 
casting a ballot. There is a higher risk of LEP voters 
encountering hostility from monolingual poll workers, including 
poll workers not familiar with existing laws about language 
assistance, such as sections 203 and 208 of the Voting Rights 
Act.
    Additionally, ballots and other voting materials are often 
written in high-grade-level English, making it difficult for 
LEP voters to comprehend and respond. This can be compounded by 
higher levels of illiteracy rates, whether in English or in the 
LEP voter's original language.
    If an LEP voter, who may be a first-time voter as a newly 
naturalized citizen, has a bad experience when trying to vote 
for the first time, it stands to reason that they will not 
attempt to vote again without significant intervention and 
motivation by a third party.
    Ultimately, lack of multilingual support creates formidable 
hurdles for LEP voters. The history of discriminatory intent in 
denying language assistance shows that the lack of multilingual 
support has long been understood to interfere with an LEP 
voter's free and fair access to the ballot, and has been used 
for just that purpose.
    Thank you again for this opportunity to share our 
organizational views on this topic.
    [The statement of Ms. Minnis follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. And thank you, Ms. Minnis.
    At this time, the Chair recognizes Ms. Romero-Craft for 
five minutes.

                 STATEMENT OF KIRA ROMERO-CRAFT

    Ms. Romero-Craft. Chairman Butterfield, Ranking Member 
Steil, and members of the Subcommittee on Elections, my name is 
Kira Romero-Craft, and I serve as the Director of the Southeast 
Region for LatinoJustice PRLDEF--that is correct, Ranking 
Member--Puerto Rican Legal Defense and Education Fund.
    LatinoJustice led the way in ushering bilingual voting 
systems to the benefit of millions of language minority voters. 
Today, we use litigation and advocacy to protect those rights 
to stop discriminatory purges of eligible voters and to stem 
the dilution of the Latino voting strength.
    Thank you for the opportunity to testify before you about 
ongoing discrimination and challenges faced by language 
minority voters in Georgia and in Florida, when they attempt to 
exercise their fundamental right to vote. It is of critical 
importance to ensure that language minority voters enjoy the 
full protections of the Voting Rights Act, and any changes to 
improve those.
    I have been working litigating cases brought under the 
Voting Rights Act as well as leading our Cada Voto Cuenta 
nonpartisan election protection voter education and poll- 
monitoring activities since I joined LatinoJustice at the 
southeast office located in Orlando, Florida, in 2017. As a 
result, I have experienced firsthand the complaints of voters 
suffering discrimination, and also the pushback and outright 
opposition from certain election officials providing full 
compliance with the language assistance requirements of the 
Voting Rights Act.
    In Georgia, we have seen Spanish-language-dominant voters 
who have not even been able to register to vote because there 
are no voter registration applications available in Spanish, or 
assistance available, as well as not receiving updated 
information related to changes being made to the administration 
of elections in their preferred language. We have seen that in 
the 2020 elections as well as during the runoff elections.
    In addition, I would be remiss to not include the fact that 
Puerto Rican U.S. citizens were denied the opportunity to 
exchange their Puerto Rican driver's license, or identity 
document in Georgia for many, many years, and it wasn't until 
recent settlement, based on our litigation in the State of 
Georgia, that allowed Puerto Ricans to enjoy the full 
privileges of all U.S. citizens.
    In Florida, we have fielded many complaints from voters, in 
addition to a voter in Lake County who wasn't provided Spanish-
language services in order to register to vote; voters in 
Osceola County who have had the police called on them because 
they were wearing a Spanish-language T-shirt and called--they 
called the police to have them removed from the line when they 
were trying to exercise their right to vote; as well as an 
elderly voter in Miami-Dade County who was not allowed to bring 
the assister of her choice into the voting booth to help her 
with her ballot.
    I am here to testify specifically about how language access 
provisions are still vitally important to achieve full equality 
and access to the ballot in America.
    An example of a recent case involving language assistance 
is our lawsuit brought against 32 Florida counties for failure 
to provide required language assistance to Puerto Rican voters 
with limited English proficiency in 2018 as required by Section 
4(e) of the Voting Rights Act. Our advocacy of course began in 
the spring of 2018, where we called election officials to 
address their obligations to provide Spanish language 
assistance and materials under Section 4(e), which went 
unanswered.
    LatinoJustice and our partner organization, Demos, filed a 
lawsuit against the Florida Secretary of State and the 32 
Florida counties, which would have forced them to provide the 
materials and assistance in Spanish.
    Because of our election protection activities, we also 
learned that polling places in these counties named in the 
lawsuit were failing to provide the materials and the 
assistance despite a court order requiring to do so.
    As a result of our litigation, the Governor of Florida 
initiated a rulemaking process to require Spanish-language 
ballots across the State. Yet, despite the court order and the 
Governor's mandates, we have still been met with objections.
    Fortunately, the rules were passed last year. And, earlier 
this year, we did enter into a settlement agreement with 31 of 
the 32 counties that now agree to provide Spanish-language-
dominant voters materials and assistance so that they can cast 
their ballot.
    Not surprisingly, one of the supervisors of elections, 
Charlotte County's supervisor, declined to settle, advising 
that, in his county, the number of voters eligible to receive 
these services was too small and did not justify the cost.
    It is also important to note that there are many instances 
of discrimination inside of the polls that we hear about, but, 
because we cannot be in the polls, we cannot report on those 
issues of discrimination.
    In closing, we support the passage of voting rights laws 
that enforce the language minority assistance provision 
currently provided by the Voting Rights Act and make those 
stronger.
    Thank you very much for the opportunity to testify today in 
support of these changes.
    [The statement of Ms. Romero-Craft follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. And thank you for your testimony.
    At this time, the Chair is pleased to recognize Ms. 
Dhillon. She will be recognized for five minutes.
    And, Ms. Dhillon, in reading your bio this morning, it 
appears that you have some connection to the adjoining county 
to my home county of Wilson, North Carolina. It looks like you 
may have resided at one point in Johnston County, which is to 
our south.
    But thank you for coming today, and thank you for your 
distinguished career. You are recognized for five minutes.

                  STATEMENT OF HARMEET DHILLON

    Ms. Dhillon. Thank you, sir.
    Chairman Butterfield, Ranking Subcommittee Member Steil, 
and members of the Committee, I think we can all agree that we 
strongly support election integrity, including safe, fair, and 
free elections.
    I am a Republican civil rights lawyer living in San 
Francisco, and I have litigated civil rights and election 
issues across the country for over a decade.
    As a young immigrant, born in India, growing up in rural 
Smithfield, North Carolina in the 1970s, I cherish the fact 
that I live in the greatest country in the world, and where 
voter participation and access is admired around the world.
    But declining voter confidence is a real issue in the 
United States today. In a post-election poll by the California 
Institute of Technology, 39 percent of respondents nationwide 
did not have confidence in the 2020 election results--39 
percent. One can accept the outcome of the 2020 election while 
recognizing that many voters correctly recognize several States 
ran roughshod over traditional voter integrity safeguards. 
Thirty-nine percent is a significant number of worried voters 
that should concern all Americans. This is clearly not a 
partisan issue.
    Outside Washington, where I and most Americans reside, 
there are practical solutions to this problem that the last two 
national, bipartisan commissions on elections have endorsed. I 
would like to discuss two of those solutions today.
    The first is requiring voter ID. While it is not popular 
among elected Democrat officials and activists, it is widely 
popular amongst the--both parties' electorates. Every poll I am 
aware of, taken both before and after the recent election 
regarding voter ID, has shown overwhelming support amongst 
Democrat, Independent, and Republican voters.
    Most recently, 69 percent of African American and 82 
percent of other minority voters express support for voter ID 
laws nationwide, yet Democrats think these voters are utterly 
incapable of obtaining an ID to vote. As an American and an 
immigrant and a woman of color, I find that assumption 
offensive.
    For example, Georgia voters overwhelming favored requiring 
voter ID when voting absentee. That is 74 percent of Georgia 
voters in favor of voter ID compared to a mere 22 percent who 
are opposed.
    One of the reasons for the overwhelming support for voter 
ID was put forth by the 2005 Carter-Baker Commission on Voting 
in a report called ``Building Confidence in U.S. Elections.'' 
That commission predicted our current national mood, and I 
quote. ``Americans are losing confidence in the fairness of 
elections. And while we do not face a crisis today, we need to 
address the problem of our electoral system.''
    That crisis is now upon us. The commission offered a simple 
solution, and I quote. ``The electoral system cannot inspire 
public confidence if no safeguards exist to deter and detect 
fraud or to confirm the identity of voters. Photo IDs currently 
are needed to board a plane, to enter Federal buildings, and to 
cash a check. Voting is equally important.''
    Despite this bipartisan wisdom, including from our former 
President Jimmy Carter, who I think no one on this panel would 
call a racist, Democrats are refusing to embrace the solutions 
of the Carter-Baker Commission, such as voter ID. Recent bills 
in Congress, including H.R. 1 and S. 1, would do the opposite 
of the commission's recommendations by upending voter ID 
requirements across the Nation.
    When an election administration proposal that endures broad 
bipartisan support, as opposed to elected Democrats, is it any 
wonder why H.R. 1 and S. 1 have partisan opposition, but no 
Republican support?
    Also of note, most voter ID laws today provide free IDs to 
those who do not have them, so that they may vote and enjoy 
other freedoms important in today's society, such as to buy 
antihistamines, to board a plane, to get a vaccination--another 
important issue in today's society. Such identification is 
necessary for practically every social service, including 
benefits--including welfare benefits for most in need. Why 
would we not want to help citizens obtain them?
    The argument against free voter ID is that it poses a 
barrier to voting. However, the evidence does not support this. 
A sweeping study by the Knight Foundation that sampled 1,200 
voters was recently released last year exploring why people did 
not vote, and the truth is painfully clear, and I quote, 
``Structural issues, such as voter ID laws, didn't come up 
enough to even be marked in the Knight survey results.'' But, 
beyond ID, there is a second way to increase voter confidence, 
and that is by maintaining accurate voter lists.
    In D.C., for instance, voters this last election cycle 
reported receiving five or more ballots intended for former 
residents of their apartments.
    This issue also has bipartisan support. In 2014, another 
bipartisan presidential election commission, the Obama 
Presidential Election Commission, had this to say: ``Accurate 
voter lists are essential to the management of elections. The 
quality of the list can affect the ability of people to vote, 
of election offices to detect problems, and of courts and 
others monitoring elections to detect election fraud or 
irregularities. A list with many incorrect records can slow 
down the processing of voters at polling places, resulting in 
longer lines, and this has been a huge problem in recent 
elections.
    ``Election officials across the political spectrum 
recognize the value of accurate and manageable election 
rolls.'' Yet, virtually every State--every time State election 
officials seek to clean up the voter rolls, Democrats sue to 
fight and stop such efforts.
    In conclusion, the unspoken truth is that all voters know 
that voter ID and voter list maintenance are important tools to 
maintain voter confidence in election administration and the 
results they produce. Democrat politicians and radical 
activists undermine that valuable confidence when they fail to 
support these commonsense, bipartisan, and widely supported 
tools.
    Thank you for your time today, and I look forward to your 
questions.
    [The statement of Ms. Dhillon follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Butterfield. And we thank you for your testimony.
    We will now proceed to member questions.
    Ms. Leger Fernandez, looks like you are first on the list. 
You are recognized for five minutes.
    Ms. Leger Fernandez. Thank you so much, Chairman, and to 
this panel of witnesses.
    I think I am going to begin with Dr. Barreto. You have 
conducted a number of studies and published several articles 
regarding language access for Latino and Hispanic voters. We 
also heard today about that importance for Asian American 
voters, and I would say, in my experience, for Native American 
voters, where we have several cases in New Mexico where they 
are required to make sure there are Navajo speakers, Jicarilla 
speakers.
    But, sticking to the Spanish-language voting, why is that 
so key for Latino and Hispano voters, the Spanish-language 
voting materials?
    Mr. Barreto. Thank you, Congresswoman, for that question.
    I think you have identified that it is important for any 
non English-speaking-citizen eligible voters, but Hispanic and 
Latino are the largest segment of U.S. citizen adult non 
English speakers, numbering over 5.5 million. So it is an 
incredibly large group, folks who are either born in the U.S., 
perhaps born in Puerto Rico, where Spanish is the official 
language, and then come to the United States to vote in 
elections here. Those voting materials need to be available in 
the language that the voter is comfortable with so that they 
can properly understand all the rules, the procedures, as well 
as who the candidates are and how to mark their ballot.
    Numerous political science studies have documented about a 
10-point increase in voter participation for Spanish speakers 
if they have an access to bilingual voting materials. So there 
is no question that, empirically, it has proven to help boost 
voter turnout rates to those who are otherwise eligible, but 
perhaps are not fluent in reading and speaking English.
    Ms. Leger Fernandez. And your testimony and answer to this 
question as well as others really brings us back to the fact 
that there is also an impact on returning voters, right? That, 
if you are harassed, if you are treated in a way that is 
different than others when you go to vote the first time, that 
you might not come back, and, so, that there is a very 
dangerous possibility of future suppression.
    So the Voting Rights Act language access provisions, what 
kind of impact have they had on Latino and Spanish-language 
voting?
    Mr. Barreto. Where they have been implemented fairly and 
fully, which is important to note that it is not always 
implemented fully--there needs to be better oversight of 
implementation of language access provisions of both Section 
203 and Section 208.
    But, where they have been implemented fully, we have seen a 
higher voter participation rate, both first-time voters as well 
as, you note, of returning voters, where the most difficult 
things can be for a voter which has language challenges to 
navigate the system, and if they don't feel that they can do 
that, if they don't feel welcome, if the language materials are 
not available, as you note, they may just leave and not come 
back. They may feel excluded from the system.
    Where Section 203 is implemented, there have been very 
robust increases in Spanish-speaking Latino voter 
participation.
    Ms.  Leger Fernandez. Thank you. And, based on your 
research, what do you think are the reasons that Americans, as 
has been--one of the witnesses stated today, might not have 
faith in our elections? What----
    Mr. Barreto. Well, faith in our elections is very good, and 
I would agree with that sentiment. But it is important that 
those voters who show up to vote don't feel that they are being 
discriminated against for any reason, whether it is for 
language, for lack of ID, or being challenged at the polls.
    When those sorts of instances happen, where voters have a 
negative experience at the polls and are challenged or are not 
able to navigate the polling place, that leads to a rejection 
and withdrawal. And so that is an important part of confidence 
as having an accessible and confident experience at the polls.
    Ms. Leger Fernandez. Right. And the numbers are vast in 
terms of one court has called an infinitesimally small number 
of evidence of fraud versus the very high percentage of Latino 
and other language speakers who are turned away.
    Ms. Romero-Craft, so existing law, as Dr. Barreto just 
pointed out, requires that there be Spanish-speaking 
assistance. What do you believe are the principal reasons that 
States and localities do not comply with the statutory 
obligation?
    Ms. Romero-Craft. I think there are a number of reasons, 
but I think one of the ones that is really a barrier for 
Spanish-language-dominant or other voters who speak another 
language other than English is that, when they even go to ask, 
they are turned away. And, just as you have rightfully stated, 
if they are turned away and they don't know where to go, they 
don't know who to ask to receive assistance, then we may never 
hear of their complaint. We may never hear of their experience.
    And I think sometimes these issues are couched by elections 
officials as being cost prohibitive. What we have found in 
jurisdictions all over the country is that there are practical 
ways that election officials administer their votes, and are 
able to meet those challenges of providing language assistance 
to voters in very--ways that are extremely reasonable.
    For example, in the State of Florida, the Secretary is 
required to provide information in Spanish across the entire 
State. So the election officials rely on that--on those 
recommendations in order to do their job.
    Ms. Leger Fernandez. Thank you, Ms. Romero.
    Mr. Chair, I would like to enter two documents into the 
record. I seek unanimous consent to enter ``Translating Into 
Votes: The Electoral Impacts of Spanish-Language Ballots,'' and 
``Voting Rights for Whom: Examining the Effects of the Voting 
Rights Act and Latino Political Incorporation.''
    Chairman Butterfield. Certainly. Without objection, both 
documents will be received.
    Ms. Leger Fernandez. Thank you. And I yield back.
    Chairman Butterfield. Gentlelady yields back.
    At this time, the chair will recognize the Ranking Member, 
Mr. Steil, for five minutes.
    Mr. Steil. Thank you very much, Mr. Chairman.
    I would seek unanimous consent to enter into the record 
three polls, the Marquette University Law School poll, the 
YouGov Economist poll, and a Gallup poll that shows support for 
voter ID.
    Chairman Butterfield. Without objection, each of these 
polls will be received into the record.
    [The information follows:]
    Mr. Steil. Thank you very much.
    Question for Ms. Harmeet Dhillon, if I can. Aside from 
Federal law, can you share why you think it is important for 
States and local governments to keep voter registration lists 
up to date?
    Ms. Dhillon. Well, I think voter confidence is a 
significant problem that the Carter-Baker Commission recognized 
as far back as 2005, and I think we have seen the results of 
that. For example, you saw a drop-off in participation between 
the Georgia 2020 November election and the runoff election. And 
certainly, anecdotal evidence supports that voters expressed 
decreased confidence in the integrity of the election as a 
reason for not voting.
    And so, while it is true that documented instances of fraud 
are low, the bigger problem, as I think everybody here on this 
Committee and speakers here would agree that we want every 
American to vote and feel confident in voting. And voter rolls 
being cleaned and maintained regularly is an important part of 
that.
    And, dating back to that 2005 commission, there were 
recommendations regarding the sharing of data amongst the 
States. Certainly States are under a mandate to keep their 
voter rolls updated. But, in my beautiful State of California, 
as recently as 3 or 4 years ago, litigation was required in Los 
Angeles County that demonstrated by Judicial Watch that over 1 
million people were registered on the ballots of one county in 
the United States alone who did not have an entitlement to be 
on that. That is duplicates. That is people who have moved, 
people who have died, people who are otherwise ineligible to 
vote.
    Other States have similarly showed similar problems. 
Pennsylvania has had problems with immigrants--legal immigrants 
being registered inaccurately on the voter rolls, which can 
have devastating consequences for new immigrants who may not be 
aware that voting before you are a citizen is a crime. That is 
a tragic outcome of government incompetence.
    So these are some of the reasons why it is important to 
have clean and accurate voting rolls.
    Mr. Steil. I say--I think you actually bring up a really 
good point, in particular, the impact that some of these 
automatic voter registration requirements, in particular, that 
is drafted in the H.R. 1 that passed the House, I think could 
have a really detrimental impact on some of our communities who 
are here who are not citizens in United States who would find 
themselves on voter lists. If any of them accidentally voted, 
there would be significant consequences for them as a result of 
the State putting them on automatic voter registration. We have 
seen that play out in Illinois.
    Can you speak a little further in particular about how some 
States that really haven't been maintaining their list, the 
impact that that is having on voter confidence? Have you 
studied the impact that voter confidence has on improving 
turnout?
    I mean, I think you and I agree on this. We want to make 
sure that everyone is able to exercise their constitutional 
right to be able to vote. We want to make it easy to vote, hard 
to cheat. And, in one aspect of this, improving voter 
confidence in the election system, I would think, would enhance 
and encourage further people to go and exercise their 
constitutional right to vote.
    Have you studied and analyzed the impact that that has, or 
could you add a little color to that?
    Ms. Dhillon. Well, I am just a country lawyer, as they 
would say. I do not perform studies like many of the learned 
scholars here on this panel and speakers. However, I am a trial 
lawyer and I introduce evidence, and, you know, the evidence I 
have seen in this matter has shown me that the problems 
regarding voter confidence and the declining nature of the 
voter confidence in some circumstances is very real. I think it 
was a different Knight study that showed that people are 
confident in their own vote--and I would put myself in that 
category--being accurate. But as you ask them about the 
confidence in the county level and the State level and the 
national level, that confidence decreases significantly.
    And so I think a principle of uniformity is important, and 
that is one thing that we did not see in the recent election. 
We saw certain counties, for example, in certain States where 
significant money was provided by nonprofits, by Mark 
Zuckerberg's nonprofit, where the signature matching in some 
counties was radically different than the signature matching 
settings in other counties, depending on who was paying for 
that election monitoring. That decreases confidence in voters 
of uniformity and equality. And so I think that is a very 
important principle that we need to have.
    Mr. Steil. Thank you very much. We saw the impact firsthand 
in Wisconsin of the funding that, ultimately, Mark Zuckerberg 
put in on making sure--the impact that it had on municipalities 
maybe not operating in a similar manner across our State.
    Appreciate your testimony today.
    And, Mr. Chairman, I yield back.
    Chairman Butterfield. The gentleman yields back. Thank you.
    At this time, the Chair recognizes Mr. Aguilar for five 
minutes.
    Mr. Aguilar. Thank you so much, Mr. Chairman.
    I was a little confused about the entrance of polling data 
into the official record, but, you know, if that is the 
precedent that we are going to have, that is fine. Very popular 
ideas like universal background checks, protecting a woman's 
right to choose, and passing comprehensive immigration reform 
also poll very popular.
    Ms. Romero-Craft, you had successfully brought legal 
actions to compel States and localities to comply with the 
Voting Rights Act's language, access provision specifically. Do 
you think this litigation is a sufficient tool to ensure that 
States and local governments provide multilingual voting 
support? And, if not, why isn't it?
    Ms. Romero-Craft. It is a tool, and it is a tool that 
should be available to all Americans if they feel that they 
were not able to exercise their full voting rights. However, I 
will say it is a deficient tool because frequently it is after 
the fact, and so it is a protracted process. Our litigation 
that we filed in 2018 took 2 years, and by that time, a lot of 
harm can happen to communities that are looking to exercise 
their rights to vote.
    So I would say oversight by the government; oversight is 
absolutely necessary. We also understand that, for example, in 
Pinellas County, where they had to comply with section 203 of 
the Voting Rights Act to provide Spanish-language dominant 
voters their access to materials and assistance, they had an 
election when they were designated after the Census that 
happened 2 months after their designation, and DOJ oversight 
made it so that they were complying with Section 203.
    So I think it is critically important that we pass laws to 
strengthen the Voting Rights Act and to make sure that minority 
language voters are able to exercise their full rights as 
provided by Federal law.
    Mr. Aguilar. When you have challenged State and local 
governments for their failure to comply with their obligation, 
how long does it take for clients to obtain that relief?
    Ms. Romero-Craft. It can be--you know, it depends. If you 
are going in on emergency litigation, sometimes you can have 
sort of a--you can have a court intervene very quickly. Other 
times, if you wait too late, you can have the courts toss out 
the case. I mean, there are all these different examples. But 
in the example that I have shared with everyone today, it took 
2 years. And it is a settlement agreement, but I think what 
folks really have to remember is that this is a process. It is 
not something that happens overnight. Outreach has to happen to 
communities that are impacted. Outreach has to happen to the 
voters. There has to be a certain amount of education to 
election officials, and poll workers change, so that has to be 
a constant process that is updated.
    And in a State like Florida where you have elections year 
around, you know, and election laws change frequently, you 
know, you have to be vigilant, and you have to make sure that 
you are reaching the impacted voters. I think that is probably 
one of the most important things that we can, you know, take 
away from these changes.
    Mr. Aguilar. Thanks, Ms. Romero-Craft.
    Ms. Minnis, unlike the Latino voting population, which 
primarily includes voters that speak English and Spanish, the 
AAPI community consists of voters that speak a variety of 
different languages. Why is access to multilingual voting 
information and support particularly important for Asian-
American voters?
    Ms. Minnis. Thank you very much. I think that one of the 
reasons harkens back to what I discussed about the issue of 
discrimination, particularly with respect to the immigration 
laws and how that means that our population is much more highly 
immigrant or more likely to come from other countries, from 
other voting systems, other democratic or perhaps not so 
democratic systems. And so that is a lot of new information 
that needs to be assessed and synthesized in order to be able 
to vote.
    We know that the voting process can be very complex even 
for folks born in this country and speak only English. And so 
in-language material is not just the ballots, not just the 
bilingual, you know, poll workers at the polling site, but 
really the purpose of section 203 in making all voting 
materials accessible in the covered language, whether that is 
registration forms or, you know, sample ballots and the like, 
is so critical, particularly for a community like Asian 
Americans that have such high levels of English--you know, 
languages other than English being spoken at home, high levels 
of limited English proficiency, and high levels of being born 
outside of the country.
    Mr. Aguilar. Well, and we know in recent years Asian 
Americans have been among the fastest growing blocks of voters 
in the United States, so this is something that obviously needs 
to--we need to pay attention to, and we need to ensure that it 
keeps up with the--that our changes keep up with the rapid 
growth of Asian-American voting population.
    Thank you so much, Mr. Chair. And I yield back.
    Chairman Butterfield. The gentleman yields back.
    At this time, the chair recognizes Mr. Davis--is that 
right?--Mr. Davis for five minutes.
    Mr. Davis. Thank you, Mr. Chair. Appreciate again the 
witnesses being here.
    Harmeet, it is great to see you again, and thanks for being 
a part of this panel.
    Ms. Dhillon. Thank you, Ranking Member Davis.
    Mr. Davis. You are a constitutional attorney, right, 
Harmeet?
    Ms. Dhillon. That is correct.
    Mr. Davis. You know, part of our Constitution, you know, 
specifically relays that our elections should be run at the 
State and local level. Another very important part of our 
Constitution is the right of every American to be able to 
petition their government. Right?
    Ms. Dhillon. That is correct, first part of the First 
Amendment.
    Mr. Davis. So it is part of the First Amendment. And here 
we are today, we are having another hearing about voter ID, and 
at the same time, at the same time, Speaker Pelosi is requiring 
anyone who visits the United States Capitol to come petition 
their government to show an ID. So is Speaker Pelosi racist?
    Ms. Dhillon. Well, she is my representative, and so I won't 
go so far as to say that. However, I would say that it is very 
unfortunate that Speaker Pelosi has limited the right of 
petition. In fact, I have a lawsuit pending against Speaker 
Pelosi and, you know, the United States Congress concerning the 
right of people to be able to pray on the Capitol Grounds. So, 
certainly, some constitutional rights are more equal than 
others today.
    But I think that right of access to the polls is incredibly 
important. As an immigrant, my mother was a poll worker in 
Johnston County, North Carolina--a poll observer, rather. And, 
you know, in the 1970s, the access to voting for minorities in 
this country in the South was very different than it is today, 
and I think we need to recognize the great strides we have made 
in this country and make laws that are relevant today, not laws 
that harken to years, decades gone by.
    Mr. Davis. I certainly couldn't agree more, Ms. Dhillon.
    As my good friend, Mr. Aguilar, mentioned, there was some 
polling data that was discussed by Ranking Member Steil. You 
know, I see even higher numbers in those polls than I see in 
polls related to the issues that my good friend, Mr. Aguilar, 
brought up. But why do you think many of today's panelists are 
imposing the will of this large majority of voters who support 
pragmatic voter ID laws?
    Ms. Dhillon. Well, I wouldn't want to speculate. And, you 
know, certainly I think some of the speakers here have cited 
studies, but self-reported studies of survey participants is 
very similar to a poll, in my opinion, and so you can take 
those or leave those.
    We simply don't have accurate data, even around the world 
if you look at studies around the world, of why people don't 
vote. You know, there are many different theories. Certainly, 
one of them is this confidence issue, and it has been discussed 
in a bipartisan basis for many years.
    I think it is incumbent upon elected officials to increase 
voter confidence and try to get that participation up. The 
participation is higher in some developed countries around the 
world than it is in the United States.
    And so if barriers include the cost of ID--and I accept 
that as true--the government should work to eliminate those 
barriers as opposed to eliminating the safeguard. That seems to 
be very commonsense. And where you see government officials 
pushing required vaccination to enjoy basic civil rights, 
another issue that I am litigating, you question why they don't 
want to solve that problem of identification that is required 
to access so many fundamental rights today.
    Mr. Davis. You mentioned some very good points there. And 
as we look ahead, I too agree that if there is going to be 
voter ID requirement, why not offer them for free? Throughout 
the entire last Congress, before the pandemic hit, we were 
traveling the country, going place to place talking about some 
of these issues, and each and every time a voter ID was 
required, there was a way to identify somebody at the lowest 
cost and in the most convenient way possible.
    Now, you bring up another interesting aspect. It is the 
COVID-19 vaccine. We saw election authorities put in emergency 
procedures in the 2020 election cycle throughout this country, 
your home State of California, my home State of Illinois. And 
at the same time, now it seems many of our colleagues would be 
okay requiring a COVID vaccination to go into a polling place 
but not a voter ID. Wouldn't that be a form of an ID?
    Ms. Dhillon. Well, of course. And it is very intrusive and 
violates numerous civil rights. It is not what I was called 
here to testify about today; but if that becomes a requirement, 
there will be litigation certainly over that and maybe even 
bipartisan litigation over that.
    Mr. Davis. I knew you weren't here to testify, but I 
thought it was an interesting question. I know you can react to 
the questions well. I know you--I have met you and have seen 
you in action before.
    One real quick question. California, your home State, 
please give me an idea of what happened with the voter rolls 
and also how it seemed that many voters received multiple 
ballots in the last election.
    Ms. Dhillon. This is a problem throughout the United States 
that is compounded by the lack of clean voter rolls in our 
country, and there have been current senator--United States 
Senator Alex Padilla was responsible for that election 
administration. And many people who are not citizens, through 
no fault of their own, have been automatically registered to 
vote. People have experienced multiple registrations. The fact 
that the State settled a case involving over 1 million 
registrations in Los Angeles County should have led to the 
cleanup of those voter rolls and cleanups throughout the State 
of 58 counties. That has not happened, and more litigation is 
likely eminent, because the lack of integrity and consistency 
among our voter rolls does decrease voter participation and 
voter confidence.
    Mr. Davis. Thank you.
    Mr. Chairman, my apologies, I did go over, but I appreciate 
your consideration allowing me to continue. I yield back.
    Chairman Butterfield. The gentleman yields back. I saw you 
winking your eye, Rodney, so I knew you were winding down, so 
we can be flexible sometimes, especially with the Ranking 
Member. Thank you very much.
    At this time, the Chair recognizes Ms. Scanlon for five 
minutes.
    Ms. Scanlon. Thank you, Chairman.
    Mr. Barreto, your testimony indicates that proponents of 
voter ID laws seek to justify them on the grounds that election 
fraud by ineligible voters is rampant. Could you comment on 
whether research, evidence or, if you know, judicial decisions 
support the claim that widespread voter fraud by ineligible 
voters has the possibility or probability of impacting election 
results?
    Mr. Barreto. Thank you for that question, Congresswoman. 
There has been no such study to document voter fraud in 
elections by persons attempting to pass them off as someone 
else, something that voter ID would supposedly catch, impacting 
election results.
    The most recent one that comes to mind for me is the case 
in North Carolina of someone taking ballots and re-marking 
them. This is not something that voter identification laws 
would have blocked, and there is no research study or 
government commission which has looked into this extensively. 
There is no study that finds that theoretical hypothetical myth 
of voter fraud is actually happening in our elections. And so 
it has been thoroughly debunked by social scientists and has 
not impacted election results.
    Ms. Scanlon. Thank you. And, certainly, there were no court 
cases in the most recent round that were able to establish any 
such thing.
    I would also submit that the corrosive impact of these 
unjustified claims has actually increased attempts by 
individuals to commit voter fraud. We have certainly seen that 
in Pennsylvania, where numerous supporters of the former 
President were arrested in the most recent election and charged 
with voter fraud because, having been told it was so easy to 
do, they attempted to vote for dead relatives or vote multiple 
times, and, in fact, they were caught and charged.
    Ms. Romero-Craft, in Pennsylvania, we have a substantial 
population of Puerto Rican-born residents, and I discussed the 
problems with strict voter ID laws with the previous panel. I 
mentioned that I participated in efforts to help low-income 
residents obtain IDs so they could vote. One of the issues that 
we encountered was that in 2010, Puerto Rico had invalidated 
all birth certificates issued before that date in order to 
increase the security of those documents, and that really 
increased the degree of difficulty for anyone born before 2010 
in Puerto Rico to get the voter ID that they needed.
    Can you comment on the impact of that law and what you have 
seen around the country as American citizens born in Puerto 
Rico try to register in other States?
    Ms. Romero-Craft. Absolutely. I thank you for bringing that 
up, because that is--one of the things that folks don't 
recognize is that U.S. citizens of all walks of life can have 
difficulties in obtaining their birth certificate. In Puerto 
Rico, in particular, sometimes folks have to travel to the 
island, which can be a prohibitive cost for folks, to obtain 
their updated birth certificate.
    You know, I can speak to my sister was born in New York 
City, and she had a misspelling in her name and had to go and 
get her birth certificate. She called me complaining. And I 
said, you know, as someone who practices under immigration law, 
I said, you know, get in line. These are problems that people 
have. And a lot of these challenges, you know, are borne by 
folks who don't have the resources to do what they need to do 
in order to get their updated materials.
    And I would say, for Puerto Rican U.S. citizens in 
particular, we see--you know, take the case of Puerto Rican 
citizens in Georgia, and it has happened across the country, 
where they were being discriminated against. We had our lead 
plaintiff in our litigation, he was arrested, charged with two 
counts of felony fraud for presenting his Puerto Rican identity 
documents, when all he was trying to do was simply get a driver 
license.
    And you can imagine that our investigation found that folks 
as early as the nineties have been undergoing the same kind of 
discriminatory treatment in the State of Georgia and were not 
able to obtain identity cards or a driver license. Their 
documents were confiscated, if you can imagine, and it was 
happening. And so you found communities that were terrified 
that did not want to go and get identity cards. And these 
issues, they raise serious concerns on behalf of community 
members, but not only that, they impact things like voting in a 
very significant way.
    It takes a lot of time to bring the community back, to make 
them feel that sense of belonging, but also that sense of 
trust, and those are the issues that we confront day in and day 
out in our work.
    Ms. Scanlon. Yes. We certainly saw the same thing in 
Pennsylvania, were trying to get them and, in fact, my law firm 
sent a paralegal to Puerto Rico to try to obtain birth 
certificates for numerous clients who were attempting to 
assist. So thank you for that testimony.
    Chairman Butterfield, I will yield back.
    Chairman Butterfield. The gentlelady yields back.
    All right. It looks like I may be next. The Chair will 
recognize himself for I suppose five minutes or less.
    Ms. Romero-Craft, you mentioned that even after you 
obtained the settlement in the Florida-language access 
litigation, you still had difficulty with the subject 
jurisdictions complying with their obligation to provide 
Spanish-language materials. Could you further explain why 
litigation is not sufficient, it is insufficient, to ensure 
that States and local governments comply with their obligations 
to provide multilingual voting materials?
    Ms. Romero-Craft. I think one of the ways, the most 
significant way that it is insufficient is because, 
unfortunately, you know, we don't have the resources, despite 
the fact of being part of a large election protection 
coalition, to monitor all of the places where these issues have 
impact on voters, and so oversight is necessary.
    You know, I have to say that, you know, folks are not 
afraid of us. In some cases, they either don't think we will 
file litigation or they think that voters that aren't impacted 
by this. And so one of the ways I think would be very impactful 
for our voting rights laws to be updated is to make sure that 
they enforce the provisions that allow for Federal oversight.
    When settlement agreements like ours are entered into to 
make sure that the election officials know that they have the 
full force of the government, then, coming in to review the 
changes that are necessary to be made to comply with this and, 
again, the harm can be done if these election officials don't 
comply, like we saw in our case that we filed in 2018, where we 
had a supervisor of elections who refused to provide these 
materials that day, then go ahead and they comply with what the 
law requires or what the court order requires. So just 
litigation simply is not enough. It has to be a multifaceted 
approach that we take to make sure----
    Chairman Butterfield. Moving forward to Dr. Barreto.
    Dr. Barreto, you have conducted extensive research into the 
burden imposed by voter ID laws on minority voters. The 
Republican witness, Ms. Roman, on the last panel emphasized 
during her testimony that several studies have not found a 
significant decline in turnout associated with voter ID laws.
    Help me with this. Please explain why voter ID laws impose 
a discriminatory burden on minority voters, even assuming those 
studies are correct, that any adverse effect on turnout is not 
substantial.
    Mr. Barreto. Well, I think, first of all, the literature is 
quite clear on turnout, as Dr. Lajevardi told us earlier. There 
is a decrease in actual turnout in areas with strict voter ID. 
But I think it is important to remember that those turnout 
studies are often the turnout of Americans with ID, you know, 
and this is in reference to the discussion of the polling 
points as well.
    About 85 percent of eligible voters do have an ID. So when 
increase in an election goes up, about 85 percent of Americans 
are able to still vote under strict ID cases. But we need to be 
looking at those 15 percent. This is our job, to protect the 
rights of those 15 percent who do not have an ID.
    And in the case of strict voter identification laws, they 
are not even eligible to participate in the first place. So 
while other people might vote at higher rates who do have a 
driver's license, there is no question that validated studies, 
which match the voter rolls to the DMV databases, show that for 
existing registrants and existing voters, when voter ID laws go 
into effect, they greatly limit Black, Latino, and other 
immigrant community voter participation.
    Chairman Butterfield. Thank you.
    This is my final question, and it goes to Ms. Minnis.
    Ms. Minnis, what changes to the Federal law governing 
access to multilingual voting support are particularly 
important to protect the interests of Asian-American voters?
    Ms. Minnis. Thank you very much for that, Chairman. I think 
it is very important that anytime we are looking at legislation 
that would improve access to the ballot for eligible Americans, 
that we are looking at ways to increase language access. So, 
for example, you could have legislation that includes, you 
know, incentives to hire bilingual poll workers. You can also 
include provisions that would, you know, require cultural 
competency training, as well as linguistic, you know, access 
training for poll workers. That is certainly something that we 
have seen throughout the years to be problematic, where 
sometimes it can be a hostile poll worker and sometimes it 
could be simply a poll worker who is not particularly aware 
about the best way to engage with an LEP voter and/or how to 
properly provide language access and assistance.
    So I think that looking at the provision of--voting rights 
provision of ballots and just the entire voting process, you 
know, seeing that as a community service model is one to 
address the needs of the voters themselves. I think that is a 
way that different pieces of legislation can help improve that. 
And, of course, continued enforcement of the Voting Rights Act, 
Sections 203 and 208, as have been previously mentioned by 
other panelists, also remain very critical. And to the idea of, 
you know, making sure that we have proper engagement and an 
active Department of Justice helping to defend and enforce 
those rights, in addition to groups on the ground, I think are 
ways that we can make sure that the language rights and the 
voting rights of our Asian Americans, of other eligible 
Americans are best protected.
    Chairman Butterfield. Thank you very much for your 
testimony.
    This will conclude the portion of this hearing dealing with 
member questions. I not only thank the witnesses but thank my 
colleagues for your patience. It has been a 2.5 hour hearing, 
and you have hung in there and just thank you very much. It is 
1:30 p.m. on the East Coast, and so I think we need to go ahead 
and complete the hearing.
    And just thank you to the witnesses. I thank each one of 
you for your valuable, valuable testimony, and the members, 
your questions on both sides of the aisle have been very, very 
enlightening and helped complete this record.
    The members of the Subcommittee may have additional 
questions for the witnesses. And if so, we will ask you to 
respond to those questions in writing; that is, to ask the 
witnesses to respond to those questions in writing. The hearing 
record will be open for those responses and it will be held 
open for a period of time.
    Thank you again to all of our witnesses for your testimony 
today.
    Is there any other business to come before the Subcommittee 
before we adjourn?
    Hearing none, I am going to get an opportunity to use my 
gavel, which I have not used today. I will say the hearing, 
without objection, is adjourned. Thank you.
    [Whereupon, at 1:27 p.m., the Subcommittee was adjourned.]

      

                        QUESTIONS FOR THE RECORD

=======================================================================

      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

      

                       SUBMISSIONS FOR THE RECORD

=======================================================================

      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
</pre></body></html>
